No. 18In the

Supreme Court of the United States
JACK D. ROSE AND VANESSA PALMA ROSE,
Petitioners,
v.
david m. reaves, chapter 7 trustee,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI
Shelton L. Freeman
Patrick M. Jones*
Freeman Law, P.L.L.C.
4248 North Craftsman Court,
Suite 100
Scottsdale, Arizona 85251
(480) 398-3100
filings@flfaz.com
Counsel for Petitioners
*Counsel of Record
289037

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Before filing for bankruptcy, all individual debtors,
forced to allocate their limited resources to essential
creditors, consequently intentionally hinder and delay
payments to others. This case involves the denial of a
discharge under 11 U.S.C. §727(a)(2)(A) to such a debtor,
who, prior to filing, used his limited funds to pay only
certain necessary creditors, but could not pay others. The
courts below, as well as other Circuits, have used a broad
statutory definition of “transfer”—a definition necessary
and applicable to other Bankruptcy Code provisions—
when considering a debtor’s ineligibility for a discharge.
Ninth Circuit precedent, though, has already held that
property must be “transferred and remain transferred”
as of the date of the bankruptcy petition in order to deny a
discharge. In this case, the deposit of funds into an account
for the express purpose of paying creditors was held to be a
“transfer” sufficient to deny Petitioners’ discharge, despite
their actual use of those funds for payment to creditors.
Using the broad definition of “transfer” intended for other
Bankruptcy Code provisions to interpret 11 U.S.C. §727(a)
(2)(A) now places every individual debtor at risk of losing
his discharge, one of the cornerstones of Congressional
intent creating the Bankruptcy Code.
Thus, the question presented is:
Whether courts considering an objection to discharge
under Section 727(a)(2)(A) of the Bankruptcy Code should
apply the narrowly tailored definition of “transferred”
used in In re Adeeb, 787 F.2d 1339 (9th Cir. 1986), requiring
that property be “transferred and remained transferred” as
of the date of the petition, or the broad definition of “transfer”
contained in Section 101(54) used by other provisions of the
Bankruptcy Code to recover assets for the estate.

ii
PARTIES
Petitioners Jack D. Rose and Vanessa Palma Rose
were the debtors and defendants in the bankruptcy court
adversary proceeding and the appellants before the
district court and the court of appeals.
Respondent David M. Reaves, a Chapter 7 bankruptcy
trustee for the District of Arizona, represented the estate
in the bankruptcy court. He was the appellee before the
district court and the court of appeals.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 6
A. Legal Background  . . . . . . . . . . . . . . . . . . . . . . . . . 6
B. Facts and Procedural History . . . . . . . . . . . . . . . 7
C. Proceedings Below . . . . . . . . . . . . . . . . . . . . . . . . . 8
REASONS FOR GRANTING THE PETITION . . . . 10

iv
Table of Contents
Page
I. 	TH E BR O A D D E F I N ITI O N O F
“ T R A NS F ER” A P PL ICA BL E T O
PREFERENCE ANALYSIS CANNOT
PROVIDE THE BASIS FOR DENIAL
OF DISCHARGE UNDER §727(a)(2)
(A) BECAUSE IT WOULD RENDER
CONGRESSIONAL INTENT FOR A
DISCHARGE A NULLITY . . . . . . . . . . . . . . . . 11
II.	THE QUESTION PRESENTED IS
I M P O R T A N T B E C A U S E TH E
C ON F L IC T I N TH E C I R C UIT S
CREATES AN ISSUE THAT IMPACTS
BA N K RU P T CI E S TH ROUGHOUT
	THE LOWER COURTS . . . . . . . . . . . . . . . . . . . 16
III. THE NINTH CIRCUIT’S HOLDING
	IS WRONG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

v
TABLE OF APPENDICES
Page
A ppendi x A — M EMOR A N DU M of
t h e U N IT ED S TAT E S C OU RT OF
APPEALS FOR THE NINTH CIRCUIT,
Filed FEBRUARY 21, 2019 . . . . . . . . . . . . . . . . . . 1a
A P P E N DI X B — O P I N ION OF T H E
UNITED STATES DISTRICT COURT
FOR TH E DIST RIC T OF A RI ZONA ,
FILED MAY 3, 2017 . . . . . . . . . . . . . . . . . . . . . . . . . . 5a
APPENDIX C — ORDER OF THE UNITED
S TA T E S B A N K RU P T C Y C OU R T,
DI S T R IC T OF A R I Z ONA , F I L ED
SEPTEMBER 27, 2016 . . . . . . . . . . . . . . . . . . . . . . . 37a
APPENDIX D — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT,
FILED APRIL 1, 2019 . . . . . . . . . . . . . . . . . . . . . . . 99a
APPENDIX E — RELEVANT STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  101a

vi
TABLE OF CITED AUThORITIES
Page
Cases
Bernard v. Sheaffer,
96 F.3d 1279 (9th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 7
Brown v. Felsen,
442 U.S. 127 (1979)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Chapman v. Houston Welfare Rights Org.,
441 U.S. 600 (1979)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Green v. Bock Laundry Mach. Co.,
490 U.S. 504 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Grogan v. Garner,
498 U.S. 279 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Gullickson v. Brown,
108 F.3d 1290 (10th Cir. 1997) . . . . . . . . . . . . . . . .  7, 16
Heppner v. Alyeska Pipeline Serv. Co.,
665 F.2d 868 (9th Cir. 1981) . . . . . . . . . . . . . . . . . . . . 15
Husky Int’l Electronics, Inc. v. Ritz,
136 S. Ct. 1581 (2016)  . . . . . . . . . . . . . . . . . . . . . . . 7, 22
In re Adams,
254 B.R. 857 (D. Md. 2000), aff’d,
4 Fed. Appx. 2009 (4th Cir. 2001)  . . . . . . . . . . . . . . . 13

vii
Cited Authorities
Page
In re Adeeb,
787 F.2d 1339 (9th Cir. 1986)  . . . . . . . . . . . . . . . . passim
In re Bajgar,
104 F.3d 495 (1st Cir. 1997)  . . . . . . . . . . . . . . .  3, 14, 17
In re Brown,
108 F.3d 1290 (10th Cir. 1997) . . . . . . . . . . . . . . . . . . . 3
In re Charno,
452 B.R. 299 (Bankr. S.D.Fla. 2011) . . . . . . . . . . . . . 14
In re Davis,
911 F.2d 560 (11th Cir. 1990)  . . . . . . . . . . . . . .  3, 14, 17
In re Dennis,
330 F.3d 696 (5th Cir. 2003) . . . . . . . . . . . . . . . . . . 6, 14
In re Egidi,
571 F.3d 1156 (11th Cir. 2009)  . . . . . . . . . . . . . . . . . . 12
In re Feynman,
77 F.2d 320 (2d Cir. 1935) . . . . . . . . . . . . . . . . . . . . . . 14
In re Gauvreau,
375 B.R. 14 (Bankr. D.Me. 2007) . . . . . . . . . . . . . . . . 14
In re Issac Leaseco, Inc.,
389 F.3d 1205 (11th Cir. 2004) . . . . . . . . . . . . . . . . . . 12

viii
Cited Authorities
Page
In re Jones,
545 B.R. 769 (Bankr. M.D. Fla. 2016) . . . . . . . . . . . . 14
In re Keeney,
227 F.3d 679 (6th Cir. 2000) . . . . . . . . . . . . . . . . . . . . . 6
In re Lawson,
122 F.3d 1237 (9th Cir. 1997) . . . . . . . . . . . . . . . . . . . . 6
In re Morehead,
249 F.3d 445 (6th Cir. 2001) . . . . . . . . . . . . . . . . . . . . 12
In re Northern Merchandise, Inc.,
371 F.3d 1056 (9th Cir. 2004) . . . . . . . . . . . . . . . . . . . 12
In re PublicAccessTechnology.Com, Inc.,
307 B.R. 500 (E.D. Va. 2004) . . . . . . . . . . . . . . . . . . . 13
In re PWS Holding Corp.,
303 F.3d 308 (3d Cir. 2002), cert. denied,
538 U.S. 924 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
In re Rose,
574 B.R. 141 (D. Ariz. 2017) . . . . . . . . . . . . . . . . . . . . . 4
In re Sandoval,
153 F.3d 722 (4th Cir. 1998) . . . . . . . . . . . . . . . . . . . . 14
In re Smiley,
864 F.2d 562 (7th Cir.1989)  . . . . . . . . . . . . . . . . . . . . 14

ix
Cited Authorities
Page
In re Stein,
208 B.R. 209 (D. Or. 1997) . . . . . . . . . . . . . . . . . . . . . 13
In re Tanner Family, LLC,
556 F.3d 1194 (11th Cir. 2009) . . . . . . . . . . . . . . . . . . 12
In re Watman,
301 F.3d 3 (1st Cir. 2002)  . . . . . . . . . . . . . . . . . . . . 3, 17
Lee Supply Corp. v. Agnew (In re Agnew),
818 F.2d 1284 (7th Cir. 1987) . . . . . . . . . . . . . . . . . . . 20
Local Loan Co. v. Hunt,
292 U.S. 234 (1934) . . . . . . . . . . . . . . . . . . . . . . . . . 6, 17
Marrama v. Citizens Bank of Massachusetts,
549 U.S. 365, 127 S. Ct. 1105 (2007) . . . . . . . . . . . . . . 6
Miller v. Gammie,
335 F.3d 889 (9th Cir. 2003) . . . . . . . . . . . . . . . . . . . . 21
Miranda B. v. Kitzhaber,
328 F.3d 1181 (9th Cir. 2003) . . . . . . . . . . . . . . . . . . . 21
Najjar v. Kablaoui (In re Kablaoui),
196 B.R. 705 (S.D.N.Y. 1996) . . . . . . . . . . . . . . . 3, 17-18
Rose v. Reaves,
754 F. App’x 572 (9th Cir. 2019) . . . . . . . . . . . . . . . . . . 4

x
Cited Authorities
Page
Schoenmann v. Bank of the West
(In re Tenderloin Health),
849 F.3d 1231 (9th Cir. 2017) . . . . . . . . . . . . . . . . . . 3, 9
Smith ex rel. Estates of Boston Chicken, Inc. v.
Arthur Andersen, L.L.P.,
175 F. Supp. 2d 1180 (D. Ariz. 2001) . . . . . . . . . . . . . 13
State Bank of India v. Chalasani
(In re Chalasani),
92 F.3d 1300 (2d Cir. 1996) . . . . . . . . . . . . . . . . . . . . . . 7
Union Bank v. Wolas,
502 U.S. 151 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
United States v. Ron Pair Enters.,
489 U.S. 235 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Vill. of San Jose v. McWilliams,
284 F.3d 785 (7th Cir. 2002) . . . . . . . . . . . . . . . . . . . . . 3
Weston v. Goss,
69 F.3d 549 (10th Cir. 1995) . . . . . . . . . . . . . . . . . . . . 14
Williams v. United States Fid. & Guar. Co.,
236 U.S. 549, 35 S. Ct. 289, 59 L. Ed. 713 (1915) . . . . 1

xi
Cited Authorities
Page
Statutes and Other Authorities
U.S. Const. Art. I, § 8, cl. 4 . . . . . . . . . . . . . . . . . . . . . . . 22
11 U.S.C. § 101(54)  . . . . . . . . . . . . . . . . . . . . . . . . . . passim
11 U.S.C. § 101(54)(D) . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 12
11 U.S.C. § 547  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 15
11 U.S.C. § 547(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 5, 11
11 U.S.C. § 547(f)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
11 U.S.C. § 548  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
11 U.S.C. § 548(a)(1)(A)  . . . . . . . . . . . . . . . . . . . . . . . . . . 11
11 U.S.C. § 548(a)(1)(B)  . . . . . . . . . . . . . . . . . . . . . . . . . . 11
11 U.S.C. § 549  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
11 U.S.C. § 550  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
11 U.S.C. § 550(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
11 U.S.C. § 727  . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9, 15, 16
11 U.S.C. § 727(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 6, 11

xii
Cited Authorities
Page
11 U.S.C. § 727(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . passim
11 U.S.C. § 727(a)(2)(A)  . . . . . . . . . . . . . . . . . . . . . . passim
11 U.S.C. § 727(a)(4)(A)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
11 U.S.C. § 727(a)(7) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Sup. Ct. R. 10(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Ba n k r upt c y A c t of 18 9 8 , C h . 5 41, § 1,
Pub. L. No. 55-541, 30 Stat. 544 . . . . . . . . . . . . . . 11-12
H.R. Rep. No. 595, 95th Cong. 314 (1977) . . . . . . . . . . .  17
S. Rep. No. 95-989, 95th Cong., 2d Sess. 27 (1978) . 12, 17
6 Collier on Bankruptcy ¶ 727.02(1) (Alan N.
Resnick & Henry J. Sommer eds., 16th ed.
Supp. 2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

1
PETITION FOR WRIT OF CERTIORARI
Petitioners Jack Rose and Vanessa Palma Rose
respectfully petition for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Ninth Circuit.
INTRODUCTION
Congress drafted the United States Bankruptcy Code
(the “Bankruptcy Code”) to provide for the equitable
distribution of the debtor’s assets to his creditors,
“relieve the honest debtor from the weight of oppressive
indebtedness[,] and permit him to start afresh free from
the obligations and responsibilities consequent upon
business misfortunes.” Williams v. United States Fid. &
Guar. Co., 236 U.S. 549, 554-55, 35 S. Ct. 289, 59 L. Ed.
713 (1915). This “fresh start” principle allowing a debtor
to discharge his prepetition debts and start anew, is the
keystone of the Bankruptcy Code.
The Bankruptcy Code does provide limited exceptions
to a debtor’s fundamental right to a discharge. For
example, Section 727(a)(2) permits a creditor or a
bankruptcy trustee to object to the discharge of the
debtor’s prepetition debts—i.e., deny the debtor a “fresh
start”—based on a prepetition “transfer” of property of
the estate that debtor actually intended to hinder, delay,
or defraud his creditors. 11 U.S.C. §727(a). Explicit in this
statutory provision is the requirement that the debtor
had the actual intent to keep property from his creditors,
thereby justifying the drastic remedy of denying the
discharge of his prepetition debts.

2
In contrast, the Bankruptcy Code also provides
equitable relief to a debtor’s creditors with a statutory
framework to corral estate assets that were transferred
by the debtor prepetition, regardless of his intent, so that
they may be redistributed fairly among his creditors. To
enlarge the pool of recoverable preferential payments,
Section 547 of the Bankruptcy Code incorporates the
extremely broad definition of “transfer” set forth in
11 U.S.C. §101(54). A debtor’s intent is not an element
of preferential transfers under Section 547(b), and the
trustee’s recovery of such transfers does not impact a
debtor’s right to a discharge.
Both these sections and other sections of the
Bankruptcy Code must be read in the context of the
realities facing individuals contemplating filing for
bankruptcy protection. Prior to filing a bankruptcy
petition, individual debtors face financial hardships,
unable to pay debts as they come due. With limited funds,
they are forced to decide which debts are essential to
their survival and which debts will be delayed. By paying
their essential creditors, they are necessarily intentional
in transferring funds which ultimately hinder and delay
their other creditors from receiving payment. Under the
ruling below and in other jurisdictions, those transfers
can preclude them from receiving a discharge, contrary
to the basic premise of the Bankruptcy Code.
Defining “transfer” for purposes of determining
denial of discharge under Section 727(a)(2)(A) has no
clear guidance from current case law or the legislative
history, resulting in a split among the Circuits. The Ninth
Circuit in In re Adeeb specifically declined to use the broad
Bankruptcy Code definition of transfer when interpreting
the language of Section 727(a)(2)(A) and instead applied

3
a narrower definition of transfer requiring that property
be “transferred and remained transferred” as of the date
of the petition. 787 F.2d 1339, 1343 (9th Cir. 1986). Despite
Adeeb’s precedence in the Ninth Circuit, the decision
below ignored stare decisis rules and instead muddied
the waters by relying on Schoenmann v. Bank of the
West (In re Tenderloin Health), 849 F.3d 1231, 1243–44
(9th Cir. 2017), a case addressing a preference action, not
dischargeability.
The First, Second, Seventh, Tenth, and Eleventh
Circuits have rejected the Adeeb holding and applied
the Section 101(54) definition while also recognizing the
inherent hardships resulting from such a holding. See,
e.g., In re Watman, 301 F.3d 3, 10 (1st Cir. 2002); In re
Bajgar, 104 F.3d 495, 498 (1st Cir. 1997); Vill. of San Jose
v. McWilliams, 284 F.3d 785, 792 (7th Cir. 2002); Davis
v. Davis(In re Davis), 911 F.2d 560, 562 (11th Cir. 1990)
(per curiam); accord In re Brown, 108 F.3d 1290, 1293 n.1
(10th Cir. 1997); Najjar v. Kablaoui (In re Kablaoui), 196
B.R. 705, 709 (S.D.N.Y. 1996).
The application of a broad definition of “transfer”
(§101(54)) to a dischargeability action under §727(a)(2)(A)
impacts debtors across the country. This broad definition
effectively authorizes denial of a discharge as a result
of any prepetition transfer by a debtor, including any
payments to essential creditors, like those pilloried in the
present case. Given their obvious insolvency, few debtors
have the practical opportunity to present this issue at
the appellate level, yet the outcome of this determination
would affect all future individual bankruptcy filings. This
Court should use this rare opportunity to clarify that a
debtor does not risk her entitlement to a discharge by
transferring funds to pay creditors.

4
OPINIONS BELOW
The unpublished Court of Appeals order denying
Appellants’ petition for rehearing and petition for
rehearing en banc is reproduced at Appendix D. The
unreported decision of the Court of Appeals, Rose v.
Reaves, 754 F. App’x 572 (9th Cir. 2019) is reproduced at
Appendix A. The District Court decision and order, In
re Rose, 574 B.R. 141, 145 (D. Ariz. 2017) is reproduced
at Appendix B. The unreported Bankruptcy Court’s
Findings of Facts, Conclusions of Law, and Order are
reproduced at Appendix C.
JURISDICTION
The Court of Appeals issued its final order denying
Appellants’ Petition for Rehearing and Petition for
Rehearing en banc on April 1, 2019. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
Section 101 of the Bankruptcy Code, 11 U.S.C. § 101
(54)(D) provides:
The term “transfer” means—
...
(D) each mode, direct or indirect, absolute or
conditional, voluntary or involuntary, of disposing of or
parting with—
(i) property; or

5
(ii) an interest in property.
Section 547 of the Bankruptcy Code, 11 U.S.C. § 547(b)
provides:
Except as provided in subsection (c) of this section,
the trustee may avoid any transfer of an interest of the
debtor in property.....
“(4) made“(A) on or within 90 days before the date of the
filing of the petition....”
Section 727 of the Bankruptcy Code, 11 U.S.C. § 727(a)
(2)(A), provides:
(a) The court shall grant the debtor a discharge,
unless–
...
(2) the debtor, with intent to hinder, delay, or defraud
a creditor or an officer of the estate charged with custody
of property under this title, has transferred, removed,
destroyed, mutilated, or concealed, or has permitted to be
transferred, removed, destroyed, mutilated, or concealed–
(A) property of the debtor, within one year before the
date of the filing of the petition;
....

6
STATEMENT OF THE CASE
A. Legal Background
Congress intended the Bankruptcy Code “to provide a
procedure by which certain insolvent debtors can reorder
their affairs, make peace with their creditors, and enjoy ‘a
new opportunity in life with a clear field for future effort,
unhampered by the pressure and discouragement of
preexisting debt.’” Grogan v. Garner, 498 U.S. 279 (1991)
(quoting Local Loan Co. v. Hunt, 292 U.S. 234, 244 (1934)).
A discharge in bankruptcy provides the necessary fresh
start for “the honest but unfortunate debtor.” Marrama
v. Citizens Bank of Massachusetts, 549 U.S. 365, 127 S.
Ct. 1105 (2007); Brown v. Felsen, 442 U.S. 127, 128 (1979)
(internal citations omitted); Local Loan Co. v. Hunt, 292
U.S. 234 (1934). Without a discharge and the ability to
obtain a “fresh start,” a debtor’s unmanageable debt
remains indefinitely, providing little hope for a debtor to
reestablish himself and contribute to the economy.
Section 727(a) of the Bankruptcy Code entitles
individual debtors to a discharge unless the objecting
party can show under Section 727(a)(2) “1) a disposition
of property…, and 2) a subjective intent on the debtor’s
part to hinder, delay or defraud a creditor through the act
disposing of the property.” In re Keeney, 227 F.3d 679, 683
(6th Cir. 2000); see also In re Dennis, 330 F.3d 696, 701
(5th Cir. 2003); In re Lawson, 122 F.3d 1237, 1240 (9th Cir.
1997). Significantly, “evidence of actual intent to defraud
creditors is required to support a finding sufficient to deny
a discharge. Constructive intent is insufficient.” Dennis,
330 F.3d at 701; see also Adeeb, 787 F.2d at 1343.

7
A general denial of a discharge under “§727(a)(2) is a
blunt remedy for actions that hinder the entire bankruptcy
process[.]” Husky Int’l Electronics, Inc. v. Ritz, 136 S.
Ct. 1581, 1589 (2016). Consequently, courts must construe
Section 727(a)(2) liberally in favor of the debtor and strictly
against those objecting to the discharge. See Gullickson v.
Brown, 108 F.3d 1290, 1292 (10th Cir. 1997); State Bank of
India v. Chalasani (In re Chalasani), 92 F.3d 1300, 1310
(2d Cir. 1996); Bernard v. Sheaffer, 96 F.3d 1279, 1281
(9th Cir. 1996).
B. Facts and Procedural History
In May 2011, after suffering a series of financial
losses triggered by the historic real estate collapse of the
mid-2000s and defending against false criminal charges,
Petitioner Jack Rose and his then-spouse Vanessa filed for
protection under Chapter 11 of the Bankruptcy Code in an
effort to restructure over $35 million of debt, stemming
primarily from personal guaranties associated with his
real estate development business.
Prior to filing for bankruptcy protection, Rose had
been performing consulting services for Highpoint
Management LLC (“Highpoint”). As part of the consulting
arrangement, Highpoint had provided Rose with use
of a debit card and access to its operating account (the
“Highpoint Account”) for payment of expenses. Rose’s
own business accounts were all closed, and he utilized the
Highpoint Account, along with his personal bank account,
until it was closed. When efforts to informally negotiate
with creditors failed, Rose decided to reorganize his debt
while still defending against the criminal proceeding.
Rose deposited the bulk of his remaining funds, primarily

8
two tax refunds, into the Highpoint Account and used
every dollar to pay his creditors, including his necessary
living expenses, his children’s educational expenses, and
legal fees toward his defense against the false criminal
charges and for his bankruptcy counsel. Upon filing the
bankruptcy petition, Rose believed that all funds that
he had deposited into the Highpoint Account had been
disbursed to creditors, and he openly disclosed his use of
the Highpoint Account to his creditors and to the United
States Trustee assigned to his case. No one at that time
asserted that Rose’s use of the Highpoint Account was
fraudulent or that it could serve as a basis for the denial
of the Roses’ discharge.
A fter the case was converted to a Chapter 7
liquidation, David Reaves was appointed as the Chapter
7 bankruptcy trustee. Reaves later brought an action
pursuant to Section 727 of the Bankruptcy Code to deny
the Roses their discharge. Despite admitting at trial
that “everyone knew” about Rose’s use of the Highpoint
Account, Reaves argued that Rose’s deposit of the funds
into that account constituted a transfer by Rose with
the actual intent to hinder, delay or defraud one of his
creditors, and he should therefore be denied the discharge
of more than $35 million of debt.
C. Proceedings Below
1.

In May 2012, Reaves, as Chapter 7 Trustee,
initiated an adversary proceeding in bankruptcy
court, alleging all of the Roses’ debt was nondischargeable under 11 U.S.C. §§ 727(a)(2)
(A), 727(a)(4)(A) and 727(a)(7). Specifically,
Reaves contended Rose’s alleged prepetition
actions regarding the deposit of funds into the

9
Highpoint Account—an account established by
Highpoint long before Rose filed his bankruptcy
petition—constituted a transfer and concealment
of assets that hindered the collection activities of
a judgment creditor.
2.

After a four-day trial, the bankruptcy court
made findings of fact and conclusions of law on
September 27, 2016. Appendix C. Although the
bankruptcy court found that Rose had used the
alleged “transferred” funds for “the legitimate
purpose of paying attorneys and other creditors”
it concluded that this was “no matter.” Appendix
C at p. 45. The bankruptcy court concluded that
Rose made a disposition through depositing funds
into the Highpoint Account and “intentionally
concealed his use and interest in the Highpoint
Account both before and after filing bankruptcy
to hinder and delay” one of his many creditors.
Appendix C at p. 42.

3.

The Roses appealed to the District Court, which
affirmed.

4.

The Ninth Circuit also affirmed. It held that “[t]
he deposits into the Highpoint [A]ccount were
properly considered ‘transfers[,’]”citing In re
Tenderloin Health, 849 F.3d at 1243–44, a case
decided after the bankruptcy court decision
that applied the Bankruptcy Code’s extremely
broad definition of “transfer” in the context of a
Section 547 preference action—not the Section
727 standard challenging the Roses’ discharge.
The Ninth Circuit Panel affirmed the District

10
Court’s holding and completely disregarded
its own precedent in Adeeb, which held that
“transfer” under Section 727 required a different
interpretation.
5.

The Roses then filed a petition for rehearing
and rehearing en banc, citing both the Panel’s
improper reliance on cases applying the extremely
broad definition of “transfer” under Section 547
preference analysis, and its failure to observe
stare decisis principles by ignoring and failing
to follow the Circuit’s prior holding in Adeeb.
Nevertheless, the Ninth Circuit summarily
denied the request. Appendix D.

This petition for certiorari followed.
REASONS FOR GRANTING THE PETITION
This Court should grant certiorari for three reasons.
First, the extremely broad definition of “transfer”
applicable to preference analysis is contrary to the
analysis required for a decision denying a debtor his
discharge and would result in the denial of a discharge to
every debtor. Second, the Circuits need clarity on which
definition applies to ensure debtors are not unfairly denied
a discharge. Finally, the decision below is wrong because
it does not properly adhere to Ninth Circuit precedent or
stare decisis principles, and it now distorts the definition
of “transfer” under Section 727(a)(2)(A) in a way that
undercuts Congressional intent of providing a “fresh
start” under the Bankruptcy Code.

11
I.

THE BROAD DEFINITION OF “TRANSFER”
APPLICABLE TO PREFERENCE ANALYSIS
CANNOT PROVIDE THE BASIS FOR DENIAL
OF DISCHARGE UNDER §727(a)(2)(A) BECAUSE
IT WOULD RENDER CONGRESSIONAL INTENT
FOR A DISCHARGE A NULLITY.

1. Although several Bankruptcy Code sections utilize
the term “transfer,” each section differs substantially in
scope in order to balance the needs of creditors to be paid
fairly and honest debtors to be granted a fresh start. See,
e.g., 11 U.S.C. §547(b) (authorizing a trustee to “avoid any
transfer” that prefers one creditor at the expense of other
creditors); 11 U.S.C. §548(a)(1)(A) (allowing a trustee to
“avoid any transfer” made “with actual intent to hinder,
delay, or defraud” a creditor); 11 U.S.C. §548(a)(1)(B)
(allowing a trustee to “avoid any transfer” where debtor
received less than a reasonably equivalent value for a
transfer); 11 U.S.C. §549 (authorizing a trustee to avoid
post-petition transfers of property); 11 U.S.C. §550(a)
(allowing recovery “for the benefit of the estate, the
property transferred” or “the value of such property.”);
see also 11 U.S.C. §727(a).
The legislature changed the definition of transfer from
the former Bankruptcy Act to the new Bankruptcy Code
in 1978 to reflect Congressional intent to broaden the
net of recoverable assets for the bankruptcy estate from
which creditors could be paid. The Bankruptcy Act of 1898
defined transfer to “include the sale and every other and
different mode of disposing of or parting with property, or
the possession of property, absolutely or conditionally, as a
payment, pledge, mortgage, gift, or security.” Bankruptcy
Act of 1898, Ch. 541, § 1, Pub. L. No. 55-541, 30 Stat. 544,

12
545. The overhauled restructuring of bankruptcy law in
1978 removed “potentially limiting words” in the former
definition to make it “as broad as possible.” S. Rep. No. 95989, 95th Cong., 2d Sess. 27 (1978). Now, the Bankruptcy
Code definition encompasses “a transfer of possession,
custody, or control even if there is no transfer of title.” S.
Rep. No. 95-989, at 27; 11 U.S.C. §101(54)(D).
2. Generally, the avoidance and recovery of a
preferential transfer aims to “facilitate the prime
bankruptcy policy of equality of distribution among
creditors of the debtor” without considering the intent of
the debtor. See In re Issac Leaseco, Inc., 389 F.3d 1205,
1209 (11th Cir. 2004)(citing Union Bank v. Wolas, 502
U.S. 151,161 (1991). Similarly, the avoidance and recovery
of fraudulent transfers enlarges the total pool of assets
available for distribution to creditors and also requires a
finding of subjective or objective intent. In re Northern
Merchandise, Inc., 371 F.3d 1056 (9th Cir. 2004); In re PWS
Holding Corp., 303 F.3d 308 (3d Cir. 2002), cert. denied,
538 U.S. 924 (2003). Neither of these, however, concerns
the drastic remedy of denying a debtor’s discharge.
Thus, Sections 547–550 of the Bankruptcy Code
allow for the broad recovery of transfers made outside
the ordinary course of the debtor’s business, but without
regard for debtor’s intent. See, e.g., In re Morehead, 249
F.3d 445, 449 (6th Cir. 2001)(wages); In re Egidi, 571 F.3d
1156, 1163 (11th Cir. 2009) (credit card funds); In re Tanner
Family, LLC, 556 F.3d 1194, 1198 (11th Cir. 2009) (lease
termination). These sections do not impose strict precepts
forcing a debtor to risk his discharge by his choice to pay
one creditor over another. Otherwise, the credit card bill
that went unpaid due to payment of child-care would now
provide a basis for denial of a debtor’s discharge. Indeed,

13
outside of bankruptcy, a debtor generally has every right
to pay one creditor in preference to another. In most
instances, disfavored creditors have no claim against the
favored creditor, provided that the transfer was made
to satisfy a genuine obligation owed by the debtor. See,
e.g., In re PublicAccessTechnology.Com, Inc., 307 B.R.
500 (E.D. Va. 2004); Smith ex rel. Estates of Boston
Chicken, Inc. v. Arthur Andersen, L.L.P., 175 F. Supp. 2d
1180 (D. Ariz. 2001); In re Adams, 254 B.R. 857 (D. Md.
2000) (noting that, “aside from bankruptcy or insolvency
statutes, preferences are not per se fraudulent.”), aff’d, 4
Fed. Appx. 2009 (4th Cir. 2001); In re Stein, 208 B.R. 209
(D. Or. 1997) (noting that under Oregon law, debtor may
prefer one creditor over another if the transaction is fair
and honest).
3. The legislative history of neither Section 547 nor
727 provides guidance on the proper interpretation of
“transferred” to be used in a dischargeability analysis.
See Adeeb, 787 F.2d at 1344. Generally, when Congress
has not defined a term in a way that is helpful to construe
a particular statute, and the legislative history does not
help to determine the proper interpretation of the term,
courts “interpret the words of these statutes in light of
the purposes Congress sought to serve.” Chapman v.
Houston Welfare Rights Org., 441 U.S. 600, 608 (1979);
see also United States v. Ron Pair Enters., 489 U.S. 235,
242 (1989)(“The plain meaning of legislation should be
conclusive, except in the ‘rare cases [in which] the literal
application of a statute will produce a result demonstrably
at odds with the intentions of its drafters.’”).
A narrower inquiry for a dischargeability determination
preserves a debtor’s right to a discharge. The broader

14
“catch-all” definition of transfer for a preference action
cannot apply. In Adeeb, the Ninth Circuit held that
“transferred” as used in Section 727(a)(2)(A) must mean
“transferred and remained transferred” in order to
most consistently align with the legislative purpose of
that section to deny discharge only to debtors who take
actions designed to keep their assets from their creditors
either by hiding the assets until after they obtain their
discharge in bankruptcy or by destroying them. Adeeb,
787 F.2d at 1344-45.
Other Circuits have avoided discussing the “murky
realm of legislative purpose and equitable principles”
regarding the issue of whether the Section 101(54)
definition applies to Section 727. See In re Bajgar, 104
F.3d 495, 499 (1st Cir. 1997); accord In re Davis, 911 F.2d
560 (11th Cir.1990). Circuits have, however, consistently
considered whether the debtor’s actions led to the
relinquishment of control of estate property and thereby
reduced assets available to the creditors, not whether
the creditor was injured. See, e.g., In re Sandoval, 153
F.3d 722 (4th Cir. 1998); Weston v. Goss, 69 F.3d 549
(10th Cir. 1995); In re Davis, 911 F.2d 560, 561 (11th Cir.
1990); In re Smiley, 864 F.2d 562, 567 (7th Cir.1989); In re
Feynman, 77 F.2d 320, 322 (2d Cir. 1935). Put another way,
a “transfer” has occurred for purposes of Section 727(a)
(2) if the debtor’s property was “removed, hidden, parted
with or otherwise diminished.” In re Jones, 545 B.R. 769,
772 (Bankr. M.D. Fla. 2016)(citing In re Charno, 452 B.R.
299, 303 (Bankr. S.D.Fla. 2011) and In re Gauvreau, 375
B.R. 14, 18–19 (Bankr. D.Me. 2007)).
4. These differences in the purpose and scope of the
different sections of the Bankruptcy Code demonstrate

15
that a one-size-fits-all definition of “transfer” cannot be
applied to achieve the disparate purposes of Sections
547, 548, 550, and 727. The result would contradict
Congressional intent and absurdly render every debtor
ineligible for a discharge due to his necessary pre-petition
payments. See Heppner v. Alyeska Pipeline Serv. Co.,
665 F.2d 868, 872 (9th Cir. 1981) (noting that courts may
correct an absurdity “when Congress uses more sweeping
language than it would if it were attending carefully to
fact situations, outside the scope of its purpose, to which
the language might be erroneously understood to apply”).
A debtor considering filing for bankruptcy protection
is statutorily required to be unable to pay all of his
creditors as the debts become due. The Bankruptcy Code
presumes the insolvency of all debtors ninety (90) days
prior to filing. Section 547(f). Given the limited funds
inherent in these situations, a debtor must choose whom it
will pay. By electing to pay for basic living expenses such
as food, rent, and utilities, a debtor is necessarily forced
to make these transfers to creditors knowing that he is
hindering or delaying payments to other creditors, such as
credit card payments, car payments, or accountant fees.
Section 547 uses the Section 101(54) definition to
capture any improper payments made during this time
regardless of the debtor’s intent. However, even under
the broadest reach of Section 547, legitimate payments
to creditors cannot be avoided. Nevertheless, since these
same payments were transfers made from limited funds
that required the intentional hindering and delaying of
other creditors, the broad lens of “transfer” in Section
101(54) puts every debtor’s entitlement to a discharge at
risk when applied to Section 727(a)(2). It is inconceivable
that Congress would have designed the Bankruptcy Code

16
to require all individual debtors to be insolvent and forced
to engage in the very conduct before filing that would later
deprive them of relief proffered. This would nullify the
fundamental purpose of the Bankruptcy Code to provide
debtors a “fresh start.”
As described in Adeeb, Section 727(a)(2)(A) requires
a different interpretation of “transfer,” particularly in
light of the liberal deference required of those provisions
on behalf of the debtor. See Gullickson, 108 F.3d at 1292.
Funds that are “transferred and remained transferred”
as of a bankruptcy filing are far different than funds
deposited into an account and used to pay legitimate
creditors and necessary professionals. Applying the
broad Section 101(54) definition of transfer in the context
of determining entitlement to discharge eliminates that
distinction and frustrates the purpose of providing honest
debtors a fresh start, contrary to what Congress intended.
II. THE QUESTION PRESENTED IS IMPORTANT
BECAUSE THE CONFLICT IN THE CIRCUITS
C R E A T E S A N I S S U E T H A T I M PAC T S
BANKRUPTCIES THROUGHOUT THE LOWER
COURTS.
Certiorari should also be granted because the
question presented is not unique to the Roses. Whether
a broad definition of “transfer” should be applied to deny
a debtor a “fresh start” under Section 727 is an issue that
impacts nearly every bankruptcy case and encompasses
“an important question of federal law that has not been,
but should be, settled by this Court.” Sup. Ct. R. 10(c).

17
1. The issues of entitlement to a discharge and
the avoidance of preference actions are critical to the
administration of bankruptcy cases and affording the
debtor “a new opportunity in life and a clear field for future
effort, unhampered by the pressure and discouragement
of preexisting debt.” In re Bajgar, 104 F.3d 495, 501 (1st
Cir. 1997) (quoting Local Loan Co. v. Hunt, 292 U.S. at
244. The Ninth Circuit’s recent holding, however, now
renders discharge a nullity in direct contradiction to that
purpose.
Other Circuits have similarly inconsistent applications.
As noted, supra, the legislative history of Section 101(54)
explains that the current definition of transfer “is as
broad as possible.” S.Rep. No. 989, 95th Cong. 27 (1978),
reprinted in 1978 U.S.C.C.A.N. 5787, 5813; H.R.Rep. No.
595, 95th Cong. 314 (1977). The First Circuit, like the
Ninth, notes that the legislative history offers no guidance
in interpreting “transfer” in the context of Section 727(a)
(2)(A). See Bajgar, 104 F.3d at 498; Adeeb, 787 F.2d at
1344–45. Although the First Circuit has held the definition
of transfer under Section 101(54) applies in the context
of Section 727, it also acknowledges “that reading the
term ‘transferred’ to mean ‘transferred and remained
transferred,’ could be construed, in certain instances, to
advance the ‘purpose of the Bankruptcy Act to [distribute]
the assets of the bankrupt[.]’” Bajgar, 104 F.3d at 501; see
also In re Watman, 301 F.3d 3, 10 (1st Cir. 2002).
Similarly, the Eleventh Circuit rejected Adeeb while
recognizing its “holding may work hardship in some
cases,” but it was “not free to create by interpretation an
exception in a statute which is plain on its face.” Davis,
911 F.2d at 562 (per curiam); accord Kablaoui, 196 B.R.

18
at 709. Given the fundamental purpose of bankruptcy,
this hardship cannot be Congress’s intent. See Green v.
Bock Laundry Mach. Co., 490 U.S. 504, 509, 511 (1989)
(holding that when the “plain language” of a statutory
text compels a sufficiently “odd result,” a federal court
may properly conclude that the statute “‘can’t mean what
it says[.]”’(internal citation omitted).
2. The scarcity of cases addressing this issue
highlights why the Roses’ singular circumstances provide
this Court a rare opportunity to address and resolve
this issue. Unlike the vast majority of individuals facing
bankruptcy, Rose was particularly well-positioned to
bring this issue before this Court. As an attorney, he
understood the legal process and was able to assist with
the preparation of his case and his appeals. As a successful
“serial entrepreneur,” he was able to obtain funding for
the significant costs of the trial and later, the appellate
process. Additionally, with more than $35 million of debt
at risk, Rose also had the necessary motivation to continue
to fight for his right to a fresh start.
The thousands of debtors who are at risk of being
denied their discharge if this case is not heard are not
so well-positioned. The vast majority of debtors file pro
se or hire firms that file thousands of “cookie cutter”
bankruptcy cases relying on paralegals or unlicensed
bankruptcy petition preparers. Those debtors, shackled
by non-dischargeable debt and unable to receive a “fresh
start” based on the Ninth Circuit’s ruling in this case will
not have the knowledge or the resources to seek relief from
the denial of the right that Congress intended.

19
Congress granted all eligible debtors a right to a
discharge under the Bankruptcy Code and now these
debtors and all future debtors need this Court to protect
and enforce those rights. The Court should seize this
opportunity to provide needed guidance to the lower
courts. Due to the serious inequality between the financial
strength and sophistication of most debtors and their
creditors, there is a substantial risk of improper leverage
being exerted over these debtors by threats of denial
of discharge. Given the heavy emphasis on settlement
in individual bankruptcy cases or lack of resources
for debtors to pursue their rights further, many cases
raising the question presented are resolved or abandoned
before they reach the appellate level. Unless this Court
grants review now, aggressive creditors can effectively
challenge any debtor’s entitlement to a discharge, creating
a serious imbalance that is extremely harmful to existing
and prospective debtors, as well to the United States
economy. The lower courts will also continue to apply the
broad definition of “transfer” to Section 727(a)(2)(A) in an
inconsistent manner, ultimately denying eligible debtors
their rightful discharge.
Beyond the impact on every debtor, professionals
acting on behalf of debtors now also face risk. Ostensibly,
bankruptcy counsel now has the untenable option of
accepting payment from their clients while disclosing
that such payment puts the client’s discharge at risk.
Moreover, counsel cannot offer any clear guidelines
regarding which of a debtor’s payments or actions would
not be subject to risk or how to handle payments to avoid
the risk. Given that most debtors file at the height of their
financial distress, they likely would not have considered
during the prior year how their decisions to pay bills might

20
affect their entitlement to a discharge of their debts in a
potential bankruptcy filing.
Consequently, this Court’s immediate intervention is
warranted.
III. THE NINTH CIRCUIT’S HOLDING IS WRONG.
This Court should also grant certiorari because the
decision below is wrong. The holding effectively renders
all debtors ineligible for a discharge and it fails to adhere
to applicable rules of stare decisis.
1. The Debtor here used his limited funds precisely
the same way as most debtors do pre-petition—using his
available funds to stay afloat and pay either creditors
or professionals while leaving other creditors unpaid.
He neither intended to defraud his creditors nor
impermissibly transferred funds that would render him
ineligible for a discharge. “In order to justify the refusal
of discharge under a Section 727(a)(2) transfer, ‘it must
be shown that there was an actual transfer of valuable
property belonging to the debtor which reduced the assets
available to creditor and which was made with fraudulent
intent.’” Lee Supply Corp. v. Agnew (In re Agnew), 818
F.2d 1284, 1289 (7th Cir. 1987) (internal citation omitted).
“Section 727(a)(2) is intended to prevent the discharge of
a debtor who attempts to avoid payment to creditors by
concealing or otherwise disposing of assets.” 6 Collier
on Bankruptcy ¶ 727.02[1] (Alan N. Resnick & Henry J.
Sommer eds., 16th ed. Supp. 2013).
By applying the extremely broad definition of
“transfer” applicable to preference actions to the

21
dischargeability analysis, the Ninth Circuit has now
affirmed a finding that a discharge can be denied without
a disposition of property and without the actual, subjective
intent to defraud creditors. This use of funds cannot
provide the basis for denial of the discharge under Section
727(a)(2).
The choice to remove money from an account to buy
food, pay a doctor or an attorney, while leaving other
creditors unpaid, cannot serve as evidence of a subjective
intent to defraud creditors under Section 727(a)(2)(A).
This Ninth Circuit holding has now rendered every debtor
ineligible for a discharge and confirms the Hobson’s choice
presented to debtors prior to filing bankruptcy: Pay one
creditor, expense, or professional while other creditors
remain unpaid and risk your discharge. Paying one
creditor instead of another, though, cannot be indicative
of an overall intent to hinder, delay or defraud creditors
when every financially distressed individual faces the need
to prioritize the allocation of sparse funds.
2. Moreover, the Ninth Circuit disregarded prevailing
case law applying the correct definitional standard of
transfer, thereby failing to adhere to applicable rules
of stare decisis. Adeeb, decided by a three-judge panel,
is the current controlling Ninth Circuit authority for
determining what defines a “transfer” for purposes of
Section 727(a)(2). See Miranda B. v. Kitzhaber, 328 F.3d
1181, 1185 (9th Cir. 2003)(holding that a panel must follow
prior panel decisions, unless a Supreme Court decision,
an en banc decision, or subsequent legislation undermines
its precedential value); Miller v. Gammie, 335 F.3d 889,
900 (9th Cir. 2003)(en banc). No decisions prior to Adeeb
addressed this specific issue, and the Circuit declined a
hearing en banc to expressly overrule it.

22
Although subsequent intra-circuit case law has cited
Adeeb since its publication, Circuit rules preclude another
panel, including the one rendering the decision below,
from overturning its holding. Not applying the holding of
Adeeb to the facts of this case is in direct contravention of
case precedent and the rules of stare decisis. Debtors, the
counsel who advise them, bankruptcy trustees, creditors,
and the courts need uniform, consistent holdings to guide
their decisions. A system of unpublished and published
decisions with conflicting holdings does not allow for
uniformity. Petitioners and all future debtors need this
Court to enforce these rules of stare decisis.
This Court is tasked with establishing “uniform Laws
on the subject of Bankruptcies throughout the United
States[.]” U.S. Const. Art. I, § 8, cl. 4. Accordingly, this
Court has regularly granted review to resolve even shallow
conflicts over the proper construction or administration of
the Bankruptcy Code. See, e.g., Husky Int’l Electronics,
Inc. v. Ritz, 136 S. Ct. 1581 (2016). Petitioners respectfully
request it do so again here.

23
CONCLUSION
For the reasons set forth above, this Court should
grant the petition for certiorari.
Respectfully submitted,
Shelton L. Freeman
Patrick M. Jones*
Freeman Law, P.L.L.C.
4248 North Craftsman Court,
Suite 100
Scottsdale, Arizona 85251
(480) 398-3100
filings@flfaz.com
Counsel for Petitioners
*Counsel of Record
June 28, 2019

APPENDIX

1a
A
APPENDIx A —Appendix
MEMORANDUM
oF ThE
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FIlED FEBRUARY 21, 2019
uNitED StAtES COuRt OF APPEALS
FOR thE NiNth CiRCuit
No. 17-16196, No. 17-16239
D.C. No. 2:16-cv-03868-hRh
JACK D. ROSE AND VANESSA PALMA ROSE,
Debtors-Appellants,
v.
DAViD M. REAVES, ChAPtER 7 tRuStEE,
Trustee-Appellee.
––––––––––––––––––––––––––––––
JACK D. ROSE; VANESSA PALMA ROSE,
Debtors-Appellees,
v.
DAViD M. REAVES, ChAPtER 7 tRuStEE,
Trustee-Appellant.

2a
Appendix A
February 6, 2019*, Submitted, Phoenix, Arizona
February 21, 2019, Filed
Appeal from the united States
District Court for the District of Arizona.
h. Russel holland, District Judge, Presiding.
Before: hAWKiNS, M. SMith, and huRWitZ, Circuit
Judges.
MEMORANDUM**
Appellants, Jack D. Rose and Vanessa Palma Rose
(“Appellants”), appeal the bankruptcy court’s denial of
discharge under 11 u.S.C. § 727(a)(2)(A) for transferring
property within a year of filing the petition with the intent
to hinder, delay or defraud a creditor. the denial was
affirmed by the district court, In re Rose, 574 B.R. 141,
148-56 (D. Ariz. 2017), and finding the bankruptcy court
committed no clear error, In re Greene, 583 F.3d 614, 618
(9th Cir. 2009), we affirm as well.
Following a four-day trial, the bankruptcy court found
that in the year prior to filing for bankruptcy, Jack D. Rose
(“Rose”) had transferred money and deposited tax returns
totaling over $400,000 into the account of an entity,
highpoint Management Solutions, LLC (the “highpoint
the panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
*

this disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
**

3a
Appendix A
account”), which had been formed just a few months earlier
by Rose’s former employee and close personal friend,
Mubeen Aliniazee. Rose directed Aliniazee to disburse
this money on Rose’s behalf (using a separate ledger to
keep track of Rose’s use of the highpoint account). Rose
also had a debit card for the highpoint account and could
withdraw money for personal expenses.
in June 2010, a major creditor, Meridian Bank,
obtained an $8 million judgment against the Appellants
and later pursued collection and garnishment of Rose’s
accounts. Meridian sought information from Rose about
any accounts maintained “by or on behalf of him” in
any depository, but Rose did not disclose the highpoint
account.
in May 2011, Rose filed for bankruptcy. By that
time, he had spent all but approximately $1,300 of the
amounts he had deposited into the highpoint account. he
did not initially list the highpoint account on any of his
bankruptcy schedules because he believed he had zeroed
out any deposits made to the account. He testified he
had only used the highpoint account because he had no
account of his own into which he could deposit the money
and pay his attorneys.
Eventually, the trustee discovered the highpoint
account and commenced an adversary proceeding
seeking to deny discharge under various provisions of
the Bankruptcy Code. the bankruptcy court had “little
difficulty” finding that Rose was transferring his personal
property to the highpoint account for the purpose of

4a
Appendix A
hindering or delaying creditors, especially Meridian, and
denied the discharge under 11 u.S.C. § 727(a)(2)(A).
the deposits into the highpoint account were properly
considered “transfers.” In re Tenderloin Health, 849 F.3d
1231, 1243-44 (9th Cir. 2017). Rose contends the funds
did not “remain transferred” at the time of the petition
because he had caused the money to be paid out for various
legitimate expenses, attempting to rely on our decision in
In re Adeeb, 787 F.2d 1339 (9th Cir. 1986), but that case is
wholly inapposite. in Adeeb, the debtor transferred real
estate to friends pre-petition but then realized his error
and had it transferred back to him before the petition
for bankruptcy was filed. Id. at 1344-45. here, Rose
transferred the assets to the highpoint account and spent
them, and thus the funds remained out of the reach of his
creditors. Rose argues there is insufficient evidence of his
actual intent to defraud creditors, but this ignores that
§ 727(a)(2)(A) is written in the disjunctive and can also be
satisfied by showing an intent to hinder or delay creditors.
See In re Retz, 606 F.3d 1189, 1200 (9th Cir. 2010).
AFFIRMED.1

1. Because we affirm the denial of discharge under § 727(a)
(2)(A), we need not address the trustee’s cross-appeal.

5a
APPENDIx B — Appendix
OPINIONBOF ThE UNITED
STATES DISTRICT COURT FOR ThE DISTRICT
OF ARIZONA, FILED MAY 3, 2017
iN thE uNitED StAtES DiStRiCt COuRt
FOR thE DiStRiCt OF ARiZONA
No. 2:16-cv-3868-hRh
Bk. No. 2:11-bk-13156-GBN
Adv. Case No. 2:12-ap-00996-GBN
BAP Case No. AZ-16-1327
iN RE: JACK D. ROSE
AND VANESSA PALMA ROSE,
Debtors.
JACK D. ROSE AND VANESSA PALMA ROSE,
Appellants,
vs.
DAViD M. REAVES,
Appellee.
May 3, 2017, Decided;
May 3, 2017, Filed

6a
Appendix B
ORDER
Appellants/defendants Jack D. Rose and Vanessa
Palma Rose appeal1 the bankruptcy court’s order and
judgment denying a discharge under sections 727(a)(2)(A)
and 727(a)(4)(A) of the Bankruptcy Code. Oral argument
was not requested and is not deemed necessary.
BACKGROUND2
Jack Rose was a real estate developer whose business
was adversely affected by the real estate market crash in
2007 and 2008. Mr. Rose is a graduate of Yale university
and harvard Law School. Vanessa Rose is a registered
nurse and her role in Mr. Rose’s business was to sign
papers, such as personal guarantees, upon request.
in approximately February of 2010, Mubeen Aliniazee
formed the entity highpoint Management Solutions LLC
(“highpoint”). Aliniazee was a former employee as well
as a personal friend of Mr. Rose.
in approximately May 2010, the Roses began using a
bank account maintained in highpoint’s name. the Roses
deposited their own funds into the highpoint account and
1. this court has jurisdiction of this appeal under 28 u.S.C.
§ 158(a)(1), (b), and (c)(1).
2. unless otherwise noted, these background facts are taken
from the bankruptcy court’s findings of fact and conclusions of law.
tab 7, Excerpts of Record in Support of Appellants’ Opening Brief,
Docket No. 9.

7a
Appendix B
highpoint created a ledger to track these deposits. the
highpoint ledger also tracked any payments made out of
the highpoint account on the Roses’ behalf. the Roses
deposited their state income tax refund into the highpoint
account in December 2010 and their federal income tax
refund in February 2011. these two deposits into the
highpoint account totaled approximately $300,000. Mr.
Rose and highpoint entered into written agreements
regarding the deposit of the tax refunds into the highpoint
account, one for each of the tax refund deposits. in addition
to the two tax refund deposits, the Roses made eleven
other deposits into the highpoint account between May
27, 2010 and May 5, 2011, totaling $411,285.32 in all.
highpoint issued checks from the account at the
direction of Mr. Rose. in addition, Mr. Rose had a
debit card for this account. the money deposited in the
highpoint account by the Roses was primarily used to
pay lawyers, including Mr. Rose’s defense attorney3 and
the Roses’ bankruptcy counsel. in addition, at least one
creditor (irene Beard/touch Stone) was paid out of the
highpoint account as were the Roses’ accountants. the
highpoint account was also used to pay personal expenses
of the Roses. Mr. Rose testified that he used the Highpoint
account because he had no other bank account and he
needed to pay his attorneys. Mr. Rose testified that he had
3. Mr. Rose was under a criminal indictment for allegedly
improperly using investor funds. the charges against Mr. Rose were
eventually dropped but not before he had spent more than $500,000
on attorney’s fees. Defendants’ Post-trial Memorandum of Law at
10, tab 2, Excerpts of Record in Support of Appellants’ Opening
Brief, Docket No. 8-1.

8a
Appendix B
no intent to conceal the funds in the highpoint account
and that he had no intent to defraud his other creditors
by using the highpoint account to pay his attorneys.
in June 2010, Meridian Bank NA (“Meridian”)
obtained an $8 million judgment against the Roses.
Meridian pursued collection by garnishing the Roses’
bank accounts. in December 2010, Mr. Rose closed
his bank account at Washington Federal after it was
garnished by Meridian. Meridian also served a writ
of garnishment on highpoint in December 2010. this
garnishment was limited to funds in the account that
constituted earnings of the Roses and was not a general
garnishment of assets. highpoint denied paying earnings
to Mr. Rose.4 As part of its collection efforts, Meridian
also served document subpoenas on the Roses and sought,
among other documents, “[s]tatements on all checking and
savings accounts maintained by or on behalf of the named
Defendant/Judgment Debtor in any depository, wherever
located....”5 the Roses provided no information about the
highpoint account in response to this request.
On May 6, 2011, the Roses filed for bankruptcy
protection under Chapter 11 of the Bankruptcy Code. As
part of their case, the Roses filed schedules, a statement
4. Mr. Rose did, however, receive non-employee compensation
from highpoint and another Aliniazee company in 2010 of slightly
less than $90,000.
5. Findings of Fact, Conclusions of Law and Order at 4, ¶ 7,
tab 7, Excerpts of Record in Support of Appellants’ Opening Brief,
Docket No. 9 (emphasis omitted).

9a
Appendix B
of financial affairs (“SOFA”), an amended SOFA, amended
Schedules A, B, and C, amended Schedules B and F, and a
final amended SOFA. The Roses each read these various
schedules, statements, and amendments before signing
them. The Roses signed all of these filings under oath,
knowing that their creditors would rely on them and
after being warned of possible sanctions for making a
false statement.
the Roses’ Schedules listed thirty general unsecured
creditors with claims totaling more than $35 million.6 the
SOFAs listed more than fifty entities in which the Roses’
had an interest, twenty-one lawsuits involving the Roses’
in some capacity, and five foreclosure actions against real
estate owned by the Roses.7
the Roses’ initial SOFA did not list the funds
deposited into the highpoint account or otherwise mention
the highpoint account. the highpoint account was also not
listed on the Roses’ initial Schedule B. Mr. Rose believed
that at the time the Roses filed their petition, there were
no Rose funds left in the highpoint account, but there was
in fact $1,325.41 in the account. the Roses’ September
2013 amendment of Schedule B was the first time the
highpoint account was listed.

6. Defendants’ Post-trial Memorandum of Law at 6, tab 2,
Excerpts of Record in Support of Appellants’ Opening Brief, Docket
No. 8-1.
7. Id.

10a
Appendix B
On June 7, 2011, the united States trustee conducted
a meeting of creditors. the highpoint account was not
mentioned or discussed during the June 7 meeting. this
meeting was relatively short because of Mrs. Rose’s work
schedule and the trustee’s availability. 8 the meeting was
continued to June 30, 2011. At the June 30, 2011 meeting,
Mr. Rose was questioned extensively about the highpoint
account. After the creditors’ meeting, highpoint produced
a copy of the highpoint ledger and bank statements from
the highpoint account.
On November 16, 2011, plaintiff David Reaves was
appointed as Chapter 11 trustee. Copies of the highpoint
ledger and highpoint account bank statements were
forwarded to him.
On January 9, 2012, the Roses’ bankruptcy case was
converted to a Chapter 7 liquidation case. Reaves was
appointed the Chapter 7 trustee.
On May 23, 2012, Reaves commenced an adversary
proceeding seeking to deny the Roses a Chapter 7
discharge pursuant to 11 u.S.C. §§ 727(a)(2)(A), 727(a)
(4)(A), and 727(a)(7). After four days of trial testimony
and post-trial briefing and argument, on September 27,
2016, the bankruptcy court entered its Findings of Fact,
Conclusions of Law and Order. the bankruptcy court
concluded that Mr. Rose had violated sections 727(a)(2)
(A) and 727(a)(4)(A), but that Mrs. Rose had not. the
bankruptcy court also concluded that there had been no
8. Id. at 7.

11a
Appendix B
violation of section 727(a)(7) by either of the Roses. the
bankruptcy court thus ordered that Mr. Rose and the
marital community of Jack D. Rose and Vanessa Palma
Rose would not be granted a discharge in their bankruptcy
case. Judgment to that effect was entered on September
29, 2016.
On November 7, 2016, the Roses filed an appeal of
the bankruptcy court’s order and judgment denying a
discharge under sections 727(a)(2)(A) and 727(a)(4)(A).
STANDARD OF REVIEW
[t]he standard of review for an objection to
discharge is: “(1) the court’s determination
of the historical facts are reviewed for clear
error; (2) the selection of the applicable legal
rules under § 727 is reviewed de novo; and
(3) the application of the facts to those rules
requiring the exercise of judgments about
values animating the rules is reviewed de novo.”
Weddell v. Landis, 551 B.R. 74, 79-80 (D. Nev. 2016)
(quoting In re Searles, 317 B.R. 368, 373 (9th Cir. BAP
2004)). “‘Because discharge is a matter generally left to
the sound discretion of the bankruptcy judge, [courts]
disturb this determination only if [they] find a gross abuse
of discretion.’” Id. at 80 (quoting In re Cox, 41 F.3d 1294,
1296 (9th Cir. 1994)). “Accordingly, district courts ‘defer
to the bankruptcy court’s conclusions ... unless its factual
findings are clearly erroneous or it applies the incorrect
legal standard.’” Id. “A court’s factual determination is

12a
Appendix B
clearly erroneous if it is illogical, implausible, or without
support in the record.” In re Retz, 606 F.3d 1189, 1196
(9th Cir. 2010).
W hen factua l f i nd i ngs a re based on
determinations regarding the credibility of
witnesses, [the court] give[s] great deference
to the bankruptcy court’s findings, because the
bankruptcy court, as the trier of fact, had the
opportunity to note “variations in demeanor
and tone of voice that bear so heavily on the
listener’s understanding of and belief in what
is said.”
Id. (quoting Anderson v. City of Bessemer City, North
Carolina, 470 u.S. 564, 575, 105 S. Ct. 1504, 84 L. Ed. 2d
518 (1985)).
DISCUSSION
“‘[A] central purpose of the [Bankruptcy] Code is to
provide a procedure by which certain insolvent debtors can
reorder their affairs, make peace with their creditors, and
enjoy ‘a new opportunity in life and a clear field for future
effort, unhampered by the pressure and discouragement
of preexisting debt.’” In re Sicroff, 401 F.3d 1101, 1104
(9th Cir. 2005) (quoting Grogan v. Garner, 498 u.S.
279, 286, 111 S. Ct. 654, 112 L. Ed. 2d 755 (1991)). “it is
only the ‘honest but unfortunate’ debtor, however, who
is entitled to an entirely unencumbered fresh start.” Id.
(quoting Grogan, 498 u.S. at 286). A debtor may forfeit his
discharge if, in the year before filing, he, with an intent to
hinder, delay or defraud, transfers or conceals property

13a
Appendix B
or if he knowingly and fraudulently makes a false oath in
his schedules or SOFA.
The first issue presented in this appeal is whether the
bankruptcy court erred in denying Mr. Rose’s discharge
under section 727(a)(2)(A). Section 727(a)(2)(A) provides
that a bankruptcy discharge can be denied if
the debtor, with intent to hinder, delay, or
defraud a creditor or an officer of the estate
charged with custody of property under this
title, has transferred, removed, destroyed,
mutilated, or concealed, or has permitted to be
transferred, removed, destroyed, mutilated, or
concealed ... property of the debtor, within one
year before the date of the filing of the petition[.]
11 u.S.C. § 727(a)(2)(A). “A party seeking denial of
discharge under § 727(a)(2) must prove two things: ‘(1) a
disposition of property, such as transfer or concealment,
and (2) a subjective intent on the debtor’s part to hinder,
delay or defraud a creditor through the act [of] disposing
of the property.’” In re Retz, 606 F.3d at 1200 (quoting
Hughes v. Lawson, 122 F.3d 1237, 1240 (9th Cir. 1997)).
“Section 727’s denial of discharge is construed liberally in
favor of the debtor and strictly against those objecting to
discharge.” In re Adeeb, 787 F.2d 1339, 1342 (9th Cir. 1986).
the bankruptcy court concluded that “[t]his case
involves disposition through deposit into a concealed bank

14a
Appendix B
account” 9 and “that Mr. Rose intentionally concealed his
use and interest in the highpoint account both before
and after filing bankruptcy to hinder and delay his
creditors, principally Meridian.”10 the Roses argue that
the bankruptcy court erred as to both of these conclusions.
First, the Roses argue that the bankruptcy court
erred in concluding that there had been a disposition
of property for purposes of section 727(a)(2)(A) because
there was neither a transfer nor a concealment here. the
Roses argue that there could not have been a transfer of
property because Mr. Rose maintained ownership of the
funds deposited into the highpoint account. the Roses
rely on Adeeb, 787 F.2d 1339, in support of this argument.
there, the Ninth Circuit held that “‘transferred’ as used
in section 727(a)(2)(A) [means] ‘transferred and remained
transferred[.]’” Id. at 1344. the court explained that
[t] he l a ng u a g e of s e c t ion 7 2 7(a) (2) (A)
demonstrates that Congress intended to deny
discharge to debtors who take actions designed
to keep their assets from their creditors either
by hiding the assets until after they obtain their
discharge in bankruptcy or by destroying them.
the only type of transfer that has the effect of
keeping assets from creditors is a transfer in
which the property remains transferred at the
time the bankruptcy petition is filed.
9. Findings of Fact, Conclusions of Law and Order at 42, n.14,
tab 7, Excerpts of Record in Support of Appellants’ Opening Brief,
Docket No. 9.
10. Id at 43, ¶ 6.

15a
Appendix B
Id. at 1344-45 (internal citation omitted). the Roses argue
that the bankruptcy court departed from the reasoning
of Adeeb and effectively concluded that disposition of
property can occur with any transfer of funds by the
debtor, regardless of whether the funds remained the
property of the debtor. here, the Roses insist there could
not have been a transfer when Mr. Rose deposited funds
into the highpoint account because Mr. Rose maintained
control of the deposited funds at all times and the funds
were not beyond the reach of their creditors, as evidenced
by the fact that at least one of their creditors was paid
with funds from the highpoint account.
the Roses’ reliance on Adeeb is misplaced. there,
Adeeb, who was facing financial difficulties, “transferred
title to several parcels of real property to friends and
associates for no consideration” on the advice of his
attorney, who was not a bankruptcy attorney. Adeeb,
787 F.2d at 1341. “As his financial condition continued to
worsen, Adeeb sought advice from Mayer, a bankruptcy
attorney. Mayer advised Adeeb to reverse the transfers
and to disclose them to his creditors. Adeeb immediately
began to reverse the transfers.” Id. Adeeb then called a
meeting of his creditors at which he disclosed the transfers
and advised that he was in the process of reversing the
transfers. Id. at 1341-42. After the meeting, some of
Adeeb’s creditors filed an involuntary bankruptcy petition
against him. Id. at 1342. “Adeeb decided not to contest
that petition and filed a voluntary bankruptcy petition”
five days later. Id. three of his creditors sought to block
his discharge pursuant to section 727(a)(2)(A). Id. the
bankruptcy court held that section 727(a)(2)(A) barred

16a
Appendix B
Adeeb’s discharge, but the Ninth Circuit reversed. Id.
at 1342, 1346. the Ninth Circuit held “that a debtor who
transfers property within one year of bankruptcy with
the intent penalized by section 727(a)(2)(A) may not be
denied discharge of his debts if he reveals the transfers
to his creditors, recovers substantially all of the property
before he files his bankruptcy petition, and is otherwise
qualified for a discharge.” Id. at 1345. the Ninth Circuit
“emphasize[d] that the debtor must be making a good
faith effort to recover the property prior to the filing of
the involuntary petition, and he must actually recover the
property within a reasonable time after the filing of the
involuntary petition.” Id. at 1346.
here, in contrast, Mr. Rose made no effort to
recover any of the funds that he had transferred to the
highpoint account, primarily because those funds had
been transferred, as that term is defined for purposes of
section 727(a)(2)(A), to Mr. Rose’s lawyers, accountants,
and other creditors. the funds that were deposited into the
highpoint account remained transferred at the time of the
petition because they were no longer in Mr. Rose’s control
(except for approximately $1300). the fact that the Roses
had not deposited the funds in the highpoint account so
that they could access them after their bankruptcy case
was concluded does not save the Roses. By depositing
the funds in the highpoint account, the Roses kept
assets from one of their major creditors, Meridian. the
Roses’ argument that there was no property to recover
from the highpoint account because the property had
never been “transferred” as that term is used in section
727(a)(2)(A) misses the mark. there was no property to
recover not because the property that the Roses had put

17a
Appendix B
in the highpoint account had never been transferred,
but because the Roses had transferred the property in
the highpoint account to their lawyers, accountants, and
others.
In sum, the bankruptcy court did not err in finding
that the use of the highpoint account by Mr. Rose
involved a disposition by transfer. Mr. Rose first deposited
(transferred) funds held in the Roses’ name to the
highpoint account. those funds were then paid out (a
second transfer) to others such that when the Roses filed
their petition, virtually all of the funds had been paid
out of the highpoint account. these actions by Mr. Rose
constituted a disposition of property.
the Roses argue that if depositing funds into a
checking account and using those funds is considered a
“transfer” for purposes of section 727(a)(2)(A), a debtor,
in the year prior to filing his petition, would not be able
to pay ordinary expenses without running afoul of section
727(a)(2)(A). Not so. the intent element of a section 727(a)
(2)(A) violation would still have to be met. if the use of a
checking account by a debtor was not for the purpose of
hindering, delaying, or defrauding a creditor, the debtor’s
deposit of funds into the account and use of the account
would not result in a denial of discharge under section
727(a)(2)(A).
the bankruptcy court alternatively found that there
had been a disposition of property through concealment.
the Roses, however, argue that the bankruptcy court
erred in concluding that there had been a concealment

18a
Appendix B
because the highpoint account was never concealed. the
Roses contend that the basis for the bankruptcy court’s
conclusion that the highpoint account was concealed was
that the account should have been disclosed to Meridian.
But, the Roses argue that the uncontroverted evidence
shows that Meridian’s flawed collection attempts did not
require the disclosure of the highpoint account because
the garnishment writ was directed only to whether Mr.
Rose had “earnings” from highpoint.11 As the bankruptcy
court found, “[t]he Meridian garnishment of the highpoint
bank account was limited to funds in the account that
constituted earnings of the Roses and was not a general
garnishment of assets. Meridian was pursuing information
that highpoint was providing earnings to Jack Rose.”12
the Roses argue that there is no authority that supports
the contention that a debtor has to volunteer information to
creditors, yet they argue that is what the bankruptcy court
found here, that Mr. Rose should have told Meridian about
the highpoint account pre-petition even though Meridian’s
writ of garnishment was limited to Mr. Rose’s earnings.
the Roses also argue that the evidence shows that they
disclosed the highpoint account both pre-petition and postpetition. For example, irene Beard, the manager of one of
the Roses’ creditors, testified that she received Highpoint
checks from the Roses as payment.13 And, Mr. Rose was
11. trial transcript (Sept. 22, 2015) at 20-21, tab 3, Excerpts
of Record in Support of Appellants’ Opening Brief, Docket No. 8-1.
12. Findings of Fact, Conclusions of Law and Order at 5, ¶ 9,
tab 7, Excerpts of Record in Support of Appellants’ Opening Brief,
Docket No. 9.
13. Id. at 7, ¶ 13.

19a
Appendix B
questioned extensively about the highpoint account at the
June 30, 2011 creditors’ meeting. in light of this evidence,
the Roses argue that the bankruptcy court should not have
found that they concealed the highpoint account because
a “‘debtor who fully discloses his property transactions at
the first meeting of creditors is not fraudulently concealing
property from his creditors.’” Adeeb, 787 F.2d at 1345
(quoting In re Waddle, 29 B.R. 100, 103 (Bankr. W.D. Ky.
1983)). As even plaintiff testified, when he reviewed the
transcript of the June 30, 2011 creditors meeting, it was
clear that Mr. Rose had disclosed that the tax refunds had
been deposited into the highpoint account pre-petition.14
the bankruptcy court did not commit clear error in
finding that Mr. Rose concealed the Highpoint account.
In the year before the Roses filed bankruptcy, Meridian
served a subpoena on Mr. Rose seeking information about
any checking accounts maintained by or on behalf of Mr.
Rose. in response, it is undisputed that the Roses did not
provide any information about the highpoint account.
the Roses’ failure to respond to Meridian’s subpoena was
sufficient evidence to support a conclusion that Mr. Rose
was concealing the highpoint account pre-petition.
the Roses next argue that the bankruptcy court
erred as a matter of law in concluding that Mr. Rose’s
use of the highpoint account was intended to hinder and
delay his creditors, in particular Meridian. “[D]ischarge
of debts may be denied under section 727(a)(2)(A) only
14. trial transcript (Sept. 23, 2015) at 8:19-25, tab 4, Excerpts
of Record in Support of Appellants’ Opening Brief, Docket No. 8-1.

20a
Appendix B
upon a finding of actual intent to hinder, delay, or defraud
creditors.” Adeeb, 787 F.2d at 1342. “[i]ntent ‘may be
established by circumstantial evidence, or by inferences
drawn from a course of conduct.’” Id. at 1343 (quoting In re
Devers, 759 F.2d 751, 753-54 (9th Cir. 1985)). “Because the
language of the statute is in the disjunctive it is sufficient
if the debtor’s intent is to hinder or delay a creditor.” In
re Retz, 606 F.3d at 1200. “A debtor’s intent need not be
fraudulent to meet the requirements of § 727(a)(2).” Id.
the Roses argue that the bankruptcy court erred as
a matter of law in concluding that Mr. Rose’s use of the
highpoint account was intended to hinder and delay his
creditors because the bankruptcy court’s reliance on In
re Beauchamp, 236 B.R. 727, 731-32 (9th Cir. BAP 1999),
was misplaced. there, Beauchamp had his wife open a
checking account “for the purpose of depositing checks
payable to [him]. the account was in her name alone, and
she was the sole signatory on the account, but the two
understood that the money was his.” Id. at 729. At the
time Beauchamp filed for Chapter 13 relief, there was
$10,935.20 in the account. Id. Beauchamp did not “disclose
the account on his schedules.” Id. After one of his creditors,
to whom Beauchamp owed $200,000, gave Beauchamp
notice that he intended to seek Rule 2004 examinations of
both Beauchamp and his wife, “Beauchamp amended his
schedules B, C, D and F to include, among other things,
the account.” Id. the bankruptcy “court determined
that Beauchamp had transferred approximately $10,000
with intent to hinder or delay creditors,” and denied his
discharge. Id. On appeal, Beauchamp

21a
Appendix B
arg ue[d] that, because he disclosed his
clandestine account before the first meeting
of creditors and amended his schedules
accordingly, the bankruptcy court erred in
barring his discharge. in his view, Adeeb
directs courts in this circuit to clear repentant
debtors, setting the deadline for repentance no
earlier than the first meeting of creditors.
Id. at 732. the appellate court rejected this argument
because Adeeb does not stand for the proposition “that
disclosure of secreted assets at or before the § 341 meeting
precludes finding intent to hinder, delay or defraud[.]” Id.
at 734. Rather, as the Adeeb court held, the debtor must
be “‘making a good faith effort to recover the property
transferred at the time an involuntary bankruptcy petition
is filed....’” Id. at 733 (quoting Adeeb, 787 F.2d at 1346).
Because Beauchamp had only disclosed the secret account
due to the impending 2004 examinations, the appellate
court found that the bankruptcy court had not erred in
finding that the debtor’s disclosure was not motivated by
good faith. Id. at 734.
The Roses argue that there are significant differences
between this case and Beauchamp. First, unlike the debtor
there, they argue that Mr. Rose did not have Aliniazee
create the highpoint account for the sole purpose of
concealing property to be used after the petition date.
Rather, the highpoint account was created by Aliniazee
for the purpose of managing Aliniazee’s own business.
the bankruptcy court dismissed this distinction as “[n]o

22a
Appendix B
matter”15 but the Roses argue that this distinction does
matter because the fact that the account was not expressly
created for the purpose of concealing funds negates a
finding of subjective intent to hinder or delay. The Roses
also make much of the fact that at the time the tax funds
were received, Mr. Rose had no other account into which
he could have deposited the funds.
the fact that the highpoint account was not created
for the sole purpose of receiving the Roses’ funds is a
distinction without a difference from Beauchamp. As for
the Roses’ contention that Mr. Rose had no other account
into which he could have deposited the tax refunds, this
contention is simply wrong. the Roses’ bankruptcy
schedules listed five bank accounts, any one of which
could have been used to deposit the tax refunds. Mr. Rose
testified that he did not use any of these accounts because
they were in Mrs. Rose’s name but the bankruptcy court
found this testimony incredible,16 a finding to which this
court gives deference. Mr. Rose also could have opened
an account into which he could have deposited the tax
refunds, but he expressly chose not to do that in order
to hinder Meridian from collecting on its judgment. Mr.
Rose testified that if he had put the tax refunds into an
account in his name, rather than in the highpoint account,
those funds would have been garnished.17 Plainly, Mr. Rose
15. Findings of Fact, Conclusions of Law and Order at 44, ¶ 8,
tab 7, Excerpts of Record in Support of Appellants’ Opening Brief,
Docket No. 9.
16. Id. at 37, ¶ 73.
17. trial transcript (Sept. 22, 2015) at 163:4-22, tab A,
Excerpts of Record in Support of trustee’s Response Brief, Docket
No. 15.

23a
Appendix B
used the highpoint account to shield (hide) his funds from
Meridian, which had a judgment against the Roses at the
time Mr. Rose elected to deposit the tax refunds into the
highpoint account.
the Roses next argue that the bankruptcy court’s
conclusion that Mr. Rose had the actual, subjective
intent to hinder or delay is erroneous as a matter of law
because some of the funds were used to pay creditors. the
Roses contend that section 547 of the Bankruptcy Code
addresses the payment to one creditor over another prior
to a bankruptcy filing but nothing in section 547 provides
a basis for a denial of discharge.
the fact that some of the highpoint funds were used
to pay one creditor does not save the Roses. “As the Adeeb
decision makes clear, withholding funds from one creditor
to pay another, does not absolve the debtor of the violation
of § 727(a)(2)(A) that he has committed.” In re Schafer, 294
B.R. 126, 131 (N.D. Cal. 2003).
Plaintiff aptly argues that this case is similar to In re
Schafer. there, Schafer had defaulted in making payments
to transamerica Commercial Finance Corporation and
transamerica had garnished Schafer’s bank account. Id.
at 128. Schafer then opened a new account at Mechanics
Bank and deposited $75,000 in the account. Id. “Schafer
stated that he opened the new account at Mechanics
Bank because transamerica previously attached his old
account.” Id. “Schafer stated that he used the money in the
new account to pay his creditors on a pro rata basis” and
“that he held money in the form of cashier’s checks to keep

24a
Appendix B
it from being attached by transamerica.” Id. the district
court held that the bankruptcy court had not erred in
finding a violation of section 727(a)(2) because the opening
of a bank account and placing funds in that account was
a “transfer” and that Shafer’s intent in opening the new
bank account was to hinder or delay transamerica. Id. at
130-32. Similarly here, the bankruptcy court did not err
in finding that Mr. Rose’s use of the Highpoint account,
instead of an account in his or Mrs. Rose’s name, was done
to hinder or delay Meridian.
Next, the Roses argue that the “badges of fraud” do
not support a finding of actual, subjective intent.
in examining the circumstances of a transfer
under § 727(a)(2), certain “badges of fraud” may
support a finding of fraudulent intent.
“these factors, not all of which need be
present, include (1) a close relationship
between the transferor and the
transferee; (2) that the transfer was in
anticipation of a pending suit; (3) that
the transferor Debtor was insolvent or
in poor financial condition at the time;
(4) that all or substantially all of the
Debtor’s property was transferred;
(5) that the transfer so completely
depleted the Debtor’s assets that
the creditor has been hindered or
delayed in recovering any part of the
judgment; and (6) that the Debtor

25a
Appendix B
received inadequate consideration for
the transfer.”
In re Retz, 606 F.3d at 1200 (quoting Emmett Valley
Assocs. v. Woodfield, 978 F.2d 516, 518 (9th Cir. 1992)).
Although the section 727(a)(2)(A) violation did not
involve “fraudulent intent,” the bankruptcy court relied
on the “badges of fraud” in determining whether Mr.
Rose had the actual, subjective intent to hinder or delay
his creditors. the bankruptcy court found that many of
the “badges of fraud” were present here,
including the close relationship between Mr.
Rose and Mr. Aliniazee, use of the concealed
account in the face of entered judgments and
pending collection activities, occurring when
the Debtors were in poor financial condition and
that virtually all of an extremely large set of tax
refunds were concealed, frustrating Meridian’s
ongoing discovery and collection activities.18
The Roses argue that this “badges of fraud” finding
was clear error. As for Aliniazee’s close relationship with
Mr. Rose, the Roses contend that the bankruptcy court
found that Aliniazee was unwilling to share information
about the highpoint account with creditors, especially with

18. Findings of Fact, Conclusions of Law and Order at 42, ¶ 5,
tab 7, Excerpts of Record in Support of Appellants’ Opening Brief,
Docket No. 9.

26a
Appendix B
irene Beard and Meridian.19 But, the Roses argue that
Aliniazee is not a defendant and no evidence demonstrated
why he would have been obligated to provide information
beyond what he was asked, and as the bankruptcy court
found, at the garnishment hearing, “Aliniazee answered
all questions asked.” 20 Moreover, the Roses point out
that Aliniazee testified that he was not willing to commit
perjury for Mr. Rose. 21 As for the amount of the tax
refunds, the Roses argue that this amount, approximately
$316,000, was negligible in relation to their debt of over
$35 million.
the bankruptcy court did not err in relying on the
badges of fraud to determine whether Mr. Rose had the
requisite intent. “Courts may use badges of fraud not only
to show the intent to defraud, but also to show the intent to
hinder or the intent to delay.” In re Stanton, 457 B.R. 80,
93 (Bankr. D. Nev. 2011). the bankruptcy court also did
not err in finding that many of the badges of fraud were
present here. Based on the evidence, this finding was not
illogical or implausible.
the Roses next argue that the bankruptcy court
committed clear error in finding that the concealment of
the highpoint account was evidence of fraud. the Roses
argue that this was clear error because, as discussed
above, they contend that the highpoint account was not
19. Id. at 8, ¶ 14; 10, ¶ 17.
20. Id. at 23, ¶ 42.
21. trial transcript (Sept. 23, 2015) at 140:5-8, tab 4, Excerpts
of Record in Support of Appellants’ Opening Brief, Docket No. 9.

27a
Appendix B
concealed but rather disclosed to creditors both prepetition and post-petition.
to the extent that the bankruptcy court’s conclusion
as to Mr. Rose’s actual, subjective intent was based on the
fact that the highpoint account was a concealed account,
the bankruptcy court did not err. As discussed above,
there was sufficient evidence to support a conclusion that
the highpoint account was concealed pre-petition.
the Roses next argue that the bankruptcy court
committed clear error in finding that Mr. Rose’s choice
of defense counsel was evidence of his actual, subjective
intent to hinder or delay. the bankruptcy court concluded
that
Mr. Rose was forced to reconcile two powerful
forces: his intent to expend hundreds of
thousands of dollars for a top litigator in his
criminal defense, using a large part of the
expected large refunds, with the collection
pressure exerted by Meridian to discover
collectable assets. While a difficult predicament,
he chose an impermissible solution: pre and
post-petition concealment of funds held in
someone else’s bank account. 22
in a footnote, the bankruptcy court noted that “[w]hile the
Roses wish to present this challenge as a ‘hobson’s choice’
22. Findings of Fact, Conclusions of Law and Order at 44-45,
¶ 8, Excerpts of Record in Support of Appellants’ Opening Brief,
Docket No. 9.

28a
Appendix B
between prison or paying creditors, this is manifestly not
the case” and suggested that Mr. Rose could have relied
on appointed counsel rather than spending $500,000 on
retained counsel. 23 the Roses argue, however, that Mr.
Rose’s decision to retain defense counsel, rather than rely
on a public defender, is not evidence of actual, subjective
intent to hinder or delay. the Roses contend that when
faced with the prospect of going to jail, one does not
bargain hunt. the Roses insist that the bankruptcy court
should not have inferred fraudulent intent from Mr. Rose’s
actual intent, which was to pay his attorney to defend
against a false criminal indictment. But if the bankruptcy
court erred in finding that Mr. Rose should not have relied
on retained criminal defense counsel, “this error [would
be] harmless as the weight of the other factual findings
support the bankruptcy court’s conclusion.” In re Song,
Case No. CC-10-1342-SaPaKi, 2011 Bankr. LEXiS 4796,
2011 WL 6934462, at *13 (9th Cir. BAP Sept. 30, 2011).
the Roses next argue that the bankruptcy court erred
in concluding that they had “failed to rebut” the inference
of fraudulent behavior that the trustee had established. 24
the Roses argue that the rebuttal facts include that they
could not have anticipated the real estate market crash or
that Mr. Rose would be indicted, that they did not use the
funds in the highpoint account for extravagant expenses,
that they originally filed Chapter 11 with the intent to
repay their creditors, and that Mr. Rose did not have a
bank account at the time the tax refunds were received.
23. Id. at n.16.
24. Id. at 45, ¶ 8.

29a
Appendix B
While some of the facts that the Roses point to do
suggest that there were events beyond their control
that contributed to their financial woes, the bankruptcy
court’s finding that these facts did not rebut the evidence
of intent was not illogical or implausible. Mr. Rose had
other options than using the highpoint account but the
fact remains that he chose to use that account to avoid the
Meridian garnishment. None of the facts the Roses cite
to rebut that fact.
Finally, as to Mr. Rose’s actual, subjective intent, the
Roses argue that the bankruptcy erred in concluding
that Mr. Rose had a fraudulent intent when the evidence
confirms his actual intent. The Roses contend that Mr.
Rose testified that he intended to use the funds in the
highpoint account to pay his attorneys, accountants, and
creditors. the evidence shows that this is exactly how
the highpoint funds were used. the Roses insist that
where the actual conduct of the debtor demonstrates
the use of funds for legitimate business purposes and it
matches precisely the debtor’s stated intent, it is improper
for the bankruptcy court to infer fraudulent intent.
“[W]here ‘there was no evidence that the money was not
reasonably used or that it was squandered[,] [i]ndicia of
fraud are totally lacking.’” In re Beauchamp, 236 B.R. at
731 (quoting Gullickson v. Brown, 108 F.3d 1290, 1293
(10th Cir. 1997)).
As plaintiff repeatedly points out, it is irrelevant
whether Mr. Rose had a fraudulent intent or not because
the bankruptcy court found that Mr. Rose intended to
hinder or delay Meridian and this finding is sufficient for

30a
Appendix B
there to be a section 727(a)(2) violation. the bankruptcy
court was not required to also find that Mr. Rose had
fraudulent intent. that said, Mr. Rose may have intended,
and actually, used the highpoint account to primarily pay
his attorneys, but he did so knowing that Meridian was
trying to collect its $8 million judgment. the evidence
plainly establishes that Mr. Rose used the highpoint
account so that he could use the Roses’ tax refunds as
he wished, rather than having those funds garnished by
Meridian. the bankruptcy court did not err in concluding
that Mr. Rose had the actual, subjective intent to hinder
or delay Meridian.
the second issue raised in this appeal is whether the
bankruptcy court erred in denying Mr. Rose’s discharge
under section 727(a)(4)(A). Section 727(a)(4)(A) provides
that “[t]he court shall grant the debtor a discharge,
unless ... the debtor knowingly and fraudulently, in
or in connection with the case[,] made a false oath or
account[.]” 11 u.S.C. § 727(a)(4)(A). “‘A false statement
or an omission in the debtor’s bankruptcy schedules or
statement of financial affairs can constitute a false oath.’”
In re Retz, 606 F.3d at 1196 (quoting In re Khalil, 379 B.R.
163, 172 (9th Cir. BAP 2007)). “to prevail on [a § 727(a)
(4)(A)] claim, a plaintiff must show, by a preponderance
of the evidence, that: ‘(1) the debtor made a false oath
in connection with the case; (2) the oath related to a
material fact; (3) the oath was made knowingly; and (4)
the oath was made fraudulently.’” Id. at 1197 (quoting
Roberts v. Erhard, 331 B.R. 876, 882 (9th Cir. BAP
2005)). the bankruptcy court concluded that there had
been a section 727(a)(4)(A) violation in connection with

31a
Appendix B
the Roses’ original SOFA, 25 but that there had been no
section 727(a)(4)(A) violation in connection with the Roses’
original Schedule B. 26
the bankruptcy court found that Mr. Rose made a
false oath by either not listing the tax refunds that were
deposited into the highpoint account as a transfer or by
not listing the highpoint account as a closed account in the
original SOFA. 27 As even the Roses seem to acknowledge,
if the highpoint account were a “closed account”, it should
have been listed on their original SOFA. the question here
is whether the highpoint account was in fact a “closed
account” that should have been listed on the original
SOFA.
the Roses argue that the bankruptcy court erred
in concluding that the highpoint account was a closed
account because the highpoint account remained open
and was not closed on the petition date. the bankruptcy
court noted that it
presume[d] [the highpoint] account remained
open for its more conventional use as a
25. Findings of Fact, Conclusions of Law and Order at 47, ¶ 10,
tab 7, Excerpts of the Record in Support of Appellants’ Opening
Brief, Docket No. 9.
26. Id. at 46, ¶ 10. For this reason, plaintiff’s arguments as to
Schedule B are irrelevant.
27. Findings of Fact, Conclusions of Law and Order at 46-47,
¶ 10, tab 7, Excerpts of Record in Support of Appellants’ Opening
Brief, Docket No. 9.

32a
Appendix B
highpoint business account. the relevant use
however is its use by debtors. Once it completed
its role as a concealed depository for funding of
attorneys and other favored creditors, Mr. Rose
intended the transfer out of all remaining Rose
funds, thus functionally closing it as an account
“... for the benefit of the debtor....” 28
the Roses insist however that the highpoint account
was not a closed account and thus it was error for the
bankruptcy court to conclude that it should have been
listed as such an account on the original SOFA.
the bankruptcy court did not commit clear error in
finding that there had been a false oath. For the Roses’
purposes, the highpoint account was believed to have been
exhausted and was, in effect, a closed account. Although
the highpoint account had $1,325.41 of the Roses’ funds
in it at the time of the petition, Mr. Rose had instructed
that the highpoint account be drained prior to the Roses
filing their petition. As far as the Roses were concerned,
the highpoint account was a closed account at the time
of their petition. the highpoint account should have been
listed on their original SOFA.
the Roses next argue that the bankruptcy court
erred as to materiality. “‘A fact is material if it bears
a relationship to the debtor’s business transactions or
estate, or concerns the discovery of assets, business
dealings, or the existence and disposition of the debtor’s
property.’” In re Retz, 606 F.3d at 1198 (quoting In re
28. Id. at 46, n.17.

33a
Appendix B
Khalil, 379 B.R. at 173). “An omission or misstatement
that ‘detrimentally affects administration of the estate’
is material.” Id. (quoting In re Wills, 243 B.R. 58, 63 (9th
Cir. BAP 1999)).
the Roses contend that the bankruptcy court made
no finding that the omission of the Highpoint account on
the original SOFA was material. But, plaintiff argues
that the bankruptcy court did make a materiality finding
when it concluded that “Mr. Rose’s deliberate decisions
frustrated the fundamental purpose” of section 727(a)(2),
which “is to insure that the trustee and creditors have
accurate information without having to conduct costly
investigations.” 29
Assuming that the bankruptcy court’s above statement
was a finding of materiality, that finding was not supported
by the record and was clearly wrong. As plaintiff concedes,
everyone knew about the highpoint account by June
30, 2011, six weeks after the Roses’ petition was filed.
there is no evidence that the failure to list the highpoint
account on the original SOFA detrimentally affected the
administration of the bankruptcy estate.
the Roses next argue that the bankruptcy court erred
in finding that “the decision to exclude [the Highpoint
account] from the original SOFA was a knowing, fraudulent
false oath by a chief strategist for a bankruptcy and
workout firm, who at the time of filing his own bankruptcy,
29. Findings of Fact, Conclusions of Law and Order at 42, ¶ 4,
tab 7, Excerpts of Record in Support of Appellants’ Opening Brief,
Docket No. 9.

34a
Appendix B
believed he could read bankruptcy schedules better than
all but a few debtors.”30 “‘A debtor acts knowingly if he or
she acts deliberately and consciously.’” In re Retz, 606 F.3d
at 1198 (quoting In re Khalil, 379 B.R. at 173). the Roses
argue that the bankruptcy court erred because Mr. Rose
testified that he did not prepare the SOFA. Rather, Mr.
Rose testified that the Roses relied on Kathy Robinson,
Mr. Rose’s long-time bookkeeper, Aliniazee, and their
attorneys and accountants to gather the information
needed to complete the SOFA and that he and Mrs. Rose
just reviewed the documents before they were filed. 31 Mr.
Rose also testified that he did not deliberately omit the
highpoint account transfers but that he did not list the
transfers of the tax returns because tax returns are not
income and because the highpoint account was not a closed
account. 32 the Roses argue that a valid disagreement over
whether the SOFA required the listing of the account
should not be used to infer intent. the Roses also argue
that the bankruptcy court was holding Mr. Rose to a higher
standard simply because he was smart and well-educated.
the highpoint account should have been listed on the
original SOFA, and there is evidence that suggests that
Mr. Rose knowingly omitted it. Mr. Rose testified that
he read his bankruptcy schedules and statements and
30. Id. at 47, ¶ 10.
31. Defendants’ Post-trial Memorandum of Law at 6-7, tab
2, Excerpts of Record in Support of Appellants’ Opening Brief,
Docket No. 9.
32. trial transcript at 25-29 (April 28, 2016), tab 6, Excerpts
of Record in Support of Appellants’ Opening Brief, Docket No. 9.

35a
Appendix B
certified them as true even though they did not include
any mention of the highpoint account. 33 Mr. Rose also
testified that “he had the Highpoint account in mind as
he signed his bankruptcy papers.” 34
Finally, the Roses argue that the bankruptcy court
erred in finding fraudulent intent for purposes of section
727(a)(4)(A). “to demonstrate fraudulent intent, [plaintiff
bears] the burden of showing that: “‘(1)[Mr. Rose] made
the representations [e.g., a false statement or omission
in bankruptcy schedules]; (2) ... at the time he knew they
were false; [and] (3) ... he made them with the intention
and purpose of deceiving the creditors.’” In re Retz, 606
F.3d at 1198-99 (quoting In re Khalil, 379 B.R. at 173).
“intent is usually proven by circumstantial evidence or by
inferences drawn from the debtor’s conduct.” Id. at 1199.
“Reckless indifference or disregard for the truth may be
circumstantial evidence of intent, but is not sufficient,
alone, to constitute fraudulent intent.” Id.
the evidence was clear that Mr. Rose was using the
highpoint account to hide his assets from Meridian prepetition. But, there is scant evidence that by the time the
Roses filed bankruptcy, Mr. Rose intended to deceive
Meridian or any of his other creditors by not listing the
33. transcript of Recorded Proceedings of the Section 341(a)
meeting at 5:1-6, tab E, Excerpts of Record in Support of trustee’s
Response Brief, Docket No. 15.
34. Findings of Fact, Conclusions of Law and Order at 14, ¶ 23,
tab 7, Excerpts of Record in Support of Appellants’ Opening Brief,
Docket No. 9.

36a
Appendix B
highpoint account on the original SOFA. the bankruptcy
court erred in concluding that Mr. Rose omitted the
highpoint account on the original SOFA with the intention
to deceive the Roses’ creditors.
CONCLUSION
Based on the foregoing, the bankruptcy court’s order
and judgment denying a discharge based on section 727(a)
(2)(A) is affirmed but the bankruptcy court’s order and
judgment denying a discharge based on section 727(a)(4)
(A) is reversed.
DAtED at Anchorage, Alaska, this 3rd day of
May, 2017.
/s/ h. Russel holland
united States District Judge

37a
C ThE UNITED
APPENDIx C —Appendix
ORDER OF
STaTES BaNKRUPTCY COURT, DISTRICT OF
aRIZONa, FILED SEPTEMBER 27, 2016
uNitED StAtES BANKRuPtCY COuRt
DiStRiCt OF ARiZONA
Chapter 7 Proceedings
Case No: 2:11-bk-13156-GBN
Adversary No. 2:12-ap-00996-GBN
in re
JACK D. ROSE and VANESSA PALMA ROSE,
Debtors.

DAViD M. REAVES, Chapter 7 trustee,
Plaintiff,
v.
JACK D. ROSE and VANESSA PALMA ROSE,
Defendants.
FINDINGS OF FACT, CONCLUSIONS OF LAW
AND ORDER
Plaintiff trustee David M. Reaves (“Plaintiff Reaves”
or “Trustee”) filed an adversary proceeding complaint to
deny defendant debtors Jack D. Rose and Vanessa Palma
Rose (“Roses” or “Defendants” or “Debtors”) a Chapter 7

38a
Appendix C
discharge for alleged actions prepetition in transferring
and concealing assets to hinder the collection activities
of a judgment creditor and in signing false bankruptcy
schedules and statements that failed to disclose the
existence of a bank account, which had used to avoid a
judgment creditor’s collection efforts and pay preferred
creditors. Plaintiff Reaves also alleges Defendants
made a false oath in connection with the bankruptcy
case of the entity Civica Development, LLC, fdba Rose
Properties Management, LC. This court held a bench
trial on September 22 and 23, 2015 and on February
18 and April 28, 2016. Following post-trial briefing and
closing argument, this court took the proceeding under
advisement on August 4, 2016.
The court has considered sworn witness testimony,
adm itt ed ex hibits, plead i ngs and the facts and
circumstances of this case. The following findings and
conclusions are now entered:
FINDINGS OF FACT
1. In approximately February of 2010, the entity
Highpoint Management Solutions, LLC (“Highpoint”)
was formed. Its only member is Mubeen Aliniazee. Mr.
Aliniazee previously worked for Defendant Debtor Jack
Rose and is a personal friend. Beginning in approximately
May of 2010 and until the Rose bankruptcy case was filed,
Mr. and Mrs. Rose used a bank account maintained in
Highpoint’s name. The Roses deposited funds into the
Highpoint account and used it to pay creditors. Highpoint
created a ledger to track deposits and payments of the

39a
Appendix C
Roses’ funds. Joint Pretrial Statement (“JPS”), adversary
docket item (“dkt.”) 86, at uncontested facts, pgs. 2-3.
2. Among the funds deposited into the Highpoint
account were the Roses’ tax refunds: In December 2010,
the Roses deposited their state income tax refund into the
Highpoint account. in February, 2011, the Roses deposited
their federal income tax refund into the Highpoint account.
Together, the deposited tax refunds totaled approximately
$300,000. Before the refund checks were deposited into
the Highpoint account, both Jack and Vanessa Rose
endorsed them. Jack Rose and Highpoint entered into
two written agreements, one for each of the tax refund
deposits. JPS. Id.
3. Previously in June of 2010, Meridian Bank NA
(“Meridian”) obtained an $8 million judgment against
the Roses. Meridian pursued collection by garnishing
a Rose personal bank account. In December of 2010,
Meridian served a writ of garnishment (earnings) on
Highpoint, which Highpoint answered. Meridian objected
to Highpoint’s answer and on March 11, 2011, a hearing
on the garnishment was conducted in Maricopa County
Superior Court, Arizona, at which Mr. Aliniazee testified.
Id. at 3.
4. On May 6, 2011 (the “Petition Date”), Mr. and
Mrs. Rose filed a joint voluntary Chapter 11 bankruptcy
petition in the District of Arizona. As part of their case
the Roses filed schedules, a statement of financial affairs
(“SOFA”), an amended SOFA, amended Schedules A, B
and C, amended Schedules B and F and a final amended

40a
Appendix C
SOFA at various times with the United States Bankruptcy
Court for the District of Arizona. Before signing these
various schedules, statements and amendments, Jack and
Vanessa Rose each read and signed them, under oath,
knowing that their creditors would rely on them and after
being warned of possible sanctions for making a false
statement. JPS at 3-4.
5. On May 10, 2011 the Roses as debtors-in-possession,
filed their application to retain the law firm DeConcini
McDonald Yetwin & Lacy, P.C. as general reorganization
and restructuring counsel. (“DMYL application”). On
June 16, 2011, the Roses filed their application to employ
Wilenchik & Bartness, P.C. as Nunc Pro Tunc special
counsel. (“ Wilenchik application”). the Wilenchik
application contained a provision that no compensation
was to be paid to special counsel from bankruptcy estate
property and authorized special counsel to draw upon a
prepetition retainer without further order. in a related
bankruptcy, In re Civica, 2:11-bk-13137-CGC, Jack
Rose signed debtor’s application to employ DMYL as
bankruptcy counsel. Id. at 4.
6. On June 7, 2011, the united States trustee conducted
a meeting of creditors in the Roses’ personal bankruptcy
case. Both Roses appeared and gave testimony. The
meeting was continued to June 30, 2011 at which time only
Jack Rose appeared and gave testimony. On August 1, 2011,
this court granted an application from several creditors
to examine Highpoint. In response, Highpoint produced
a copy of the Highpoint ledger and bank statements from
the Highpoint account. On November 16, 2011, David M.

41a
Appendix C
Reaves was appointed as Chapter 11 trustee. Copies of
the Highpoint ledger and Highpoint account statements
were forwarded to him. On January 9, 2012, the Roses’
case was converted to a Chapter 7 liquidation case. Mr.
Reaves was appointed Chapter 7 trustee and initiated
this adversary proceeding on May 23, 2012. the First
Amended Complaint seeks to deny the Roses a Chapter
7 discharge by invoking 11 u.S.C. §§ 727(a)(2)(A), 727(a)
(4)(A) and 727(a)(7). JPS at 4-5; Amended Complaint of
June 28, 2013, dkt. 15.
A. Testimony of James Burke
7. James Burke is an attorney with a Phoenix, Arizona
law firm. He is acquainted with the Roses as defendants
in his client Meridian Bank’s law suit that resulted in a
stipulated $8 million judgment on June 3, 2010. Admitted
exhibit (“ex.”) 22. He pursued collection through Maricopa
County Superior Court document subpoenas and judgment
debtor examinations of Jack and Vanessa Rose. Documents
were produced, but the process was highly contentious and
many discovery objections were raised. Exhibit 24 is an
example of their typical responses, resulting in the need
for multiple amended Subpoena Duces Tecum. Exs. 25,
26. Information sought by Meridian included: “Statements
on all checking and savings accounts maintained by or
on behalf of the named Defendant/Judgment Debtor in
any depository, wherever located . . .” Ex. 26, ¶ 2, p. 6.
(Emphasis added). In response the Roses provided no
information regarding bank accounts maintained on
their behalf. See e.g. ex. 27. Mr. Burke learned of Jack
Rose’s involvement with Highpoint, not through the

42a
Appendix C
Roses’ document production, but through testimony at a
judgment debtor examination. However, Mr. Burke never
learned of the Roses’ use of the Highpoint bank account
for personal deposits and payment of their living expenses,
even after garnishing Highpoint.
8. On cross examination, the witness testified that he
has been licensed to practice law since 1987, has worked
as a prosecutor for a decade and now does mostly criminal
defense work and some civil work. He does not consider
himself an expert in civil legal process. In discovery, he
generally instructs his clients to simply answer the precise
question asked and not volunteer information. The money
judgment entered against the Roses was based on personal
guaranties, not civil fraud. Exhibit AA is another example
of the Roses’ response to discovery requests. Exhibit
23 is the witness’ response to a Rose motion to quash,
complaining that “Overall, the Roses have yet to comply
with the following documentary requests: 1. Statements
on all checking and savings accounts maintained by or on
behalf of the named Defendant/Judgment Debtor in any
depository wherever located . . .” Id. at pgs. 2-3. He agrees
that this discovery requests information on banking
accounts and that no general request for information about
the location of assets or cash was made. Exhibit 24 at p.
2, ¶2, lists the Roses’ response to Meridian’s discovery
request relating to checking and savings account
statements. While five different collections of statements
were provided, the Roses did not produce any account
information regarding the Highpoint account.
9. Mr. Burke is aware that there are general
garnishments and limited garnishments. The Meridian

43a
Appendix C
garnishment of the Highpoint bank account was limited
to funds in the account that constituted the earnings of
the Roses and was not a general garnishment of assets.
Meridian was pursuing information that Highpoint was
providing earnings to Jack Rose. State court proceedings
were conducted on March 11, 2011 regarding Meridian’s
objection to garnishee Highpoint’s answer. The bank
attorney representing Meridian, mentioned he was used
to bankruptcy court, in connection with his mistaken
use of the term “2004 examination” instead of the state
court term “judgment debtor examination.” Ex. 11 at pgs.
4-5. Highpoint denied paying earnings to Jack Rose. At
the hearing, Mubeen Aliniazee testified that he knew
the Roses as he was their employee previously and that
he and Jack Rose were friends. Id. at p.15. He denied
that the Roses ever held an interest in Highpoint or a
management role, although Mr. Rose was a consultant
for Highpoint. Id. Mr. Aliniazee testified that Jack Rose
was mainly a bankruptcy strategy consultant or an asset
analyst. Id. at 16. He stated that it was possible, but not
probable that Highpoint would again hire Mr. Rose as a
consultant. Currently Highpoint had no such work in its
pipeline. Id. at 17.
10. A bankruptcy creditors’ meeting was conducted
in the Roses’ personal bankruptcy case on June 30,
2011. Jack Rose testified there was an agreement with
Highpoint in which he was allowed to deposit his tax
refunds into Highpoint’s account. Ex. 10 at p. 66. Mr. Rose
was aware of the Highpoint garnishment, although he had
ceased to be an employee or consultant at that time. Id. His
refunds were in the account for a very short period before

44a
Appendix C
he had them transferred out to the Rose criminal defense
attorney. Id. at pgs. 66-67. It was Jack Rose’s belief that
at the time of Mubeen Aliniazee’s testimony before the
state court judge, all Rose funds had been transferred
out. Id. at 67. No claims of fraud were made against the
Roses in the state court litigation.
11. On redirect examination, Mr. Burke testified that
no information had been provided Meridian regarding the
Highpoint account in response to the bank’s request for
banking account information. In response to the court’s
questions, the witness testified that had he known of the
Roses’ use of the Highpoint account, his firm would have
acted to capture such funds. He only learned of the use
of the Highpoint account through a conversation with
the trustee’s counsel shortly before his court testimony.
On recross examination, the witness testified he first
learned that Jack Rose had a relationship with Highpoint
in November of 2010. This factfinder views Mr. Burke as
a credible witness and professional, who carefully reads
exhibits, appears fair and doesn’t guess at answers.
Testimony of Irene Beard
12. Ms. irene Beard is acquainted with Jack Rose
through an investment she made with him. For purposes
of this litigation, she made a February 17, 2015 declaration
which remains accurate today. Ex. x. Touch Stone AZCentral Properties, L.L.C. (“touch Stone”), which she
manages, obtained a March 17, 2009 Maricopa County
Superior Court Judgment against the Roses and a number
of their entities for $460,000 and for $65,000 plus interest.

45a
Appendix C
Ex. Z. In a meeting in July of 2009, Jack Rose promised
Ms. Beard he would soon pay her from the business
operations of Breakwater Equity. As security he allegedly
promised he would assign to Touch Stone expected tax
refunds of the Roses and their entities, anticipated to be in
the neighborhood of $375,000. Ex. x at ¶ 6, p. 2. He neither
paid her, nor provided the promised refund assignment.
In an email of December 16, 2010, she inquired of Mubeen
Aliniazee about the status of the assignment. Ex. 35 at p.
10. Ms. Beard communicated to Mr. Aliniazee, believing
him to be an employee of Mr. Rose, She had been informed
by Jack Rose that he could not speak to her directly due
to a pending criminal prosecution. She felt Mr. Rose was
becoming evasive over his promise and believes he had
referred her to Mr. Aliniazee, as his “right hand man.” It
occasionally appeared to her that it was Mr. Aliniazee who
was “calling the shots.” She was never told of the Roses’
receipt of tax refunds or that the Roses had access to a
Highpoint account.
13. On cross examination, Ms. Beard testified that
she or her entities have sued the Roses four or five times,
beginning in 2009. Although she attempted to collect from
the Roses through the use of various entities, she does not
consider herself a debt collector, legally speaking. During
Ms. Beard’s deposition of May 15, 2015, she testified,
without mentioning potential payments from Breakwater,
that she feels she was duped into paying Mr. Rose $90,000
in exchange for a promise, never kept, to assign anticipated
tax refunds. Ex. D at pgs. 52-70. Payments were received
by her on other Rose debts from Highpoint. Ms. Beard had
a contentious and argumentative cross examination with

46a
Appendix C
Rose counsel. This factfinder is unsure how knowledgeable
she truly is regarding Jack Rose’s dealings, other than
those directly involving her entities. The court finds the
witness is antagonistic toward Mr. Rose.
Testimony of Mubeen Aliniazee
14. Mr. Aliniazee is a personal friend of Jack Rose
and the owner of Highpoint. Highpoint’s main checking
account was held at Chase Bank. An accounting category
was established in May of 2010 to track Mr. Rose’s use
of the Highpoint account to make deposits, withdrawals
and track Highpoint’s reimbursements of his business
expenses. Mr. Rose’s personal use of the Highpoint
account was at his request. The witness gave permission
to deposit Jack Rose’s tax refunds into the Highpoint
account. Mr. Aliniazee knew the deposits actually occurred
and signed a written agreement regarding such use on
December 27, 2010. The agreement expressly provides
that on December 27, 2010 Mr. Rose (“JR”) deposited
$85,379.48 into the account and that Highpoint (“HMS”)
“. . .is merely holding these funds on behalf of JR and that
HMS will disburse these funds only when and as directed
by JR.” Ex. 17. Mr. Aliniazee understood the deposit to
be the Roses’ state tax refund. On February 15, 2011 the
parties made a similar agreement regarding Mr. Rose’s
deposit on the same February date of $231,506.79. Ex.
18. The witness understood this deposit to be the Roses’
federal tax refund. On December 16, 2010, Mr. Aliniazee
received an email from Ms. Beard regarding Jack Rose’s
assignment of the Roses’ tax refunds. On December 21,
2010 he advised Jack Rose of the Beard email. Ex. 35

47a
Appendix C
at p. 10. Mr. Aliniazee did not inform Ms. Beard that he
expected Mr. Rose to subsequently deposit the refunds
into Highpoint’s account, because he wanted his friend
to decide what to do. in regard to the tax refunds, Mr.
Rose “. . . called the shots.” Jack Rose’s response to Mr.
Aliniazee’s email was that the Roses would file personal
bankruptcy within 90 days.
15. In addition to the refund deposits, the Roses made
11 more deposits into the Highpoint account between May
27, 2010 and May 5, 2011, totaling in all, $411,285.32. Ex.
19 at p. 32. These deposits included what Mr. Aliniazee
understood to be Jack Rose’s paychecks, although no
additional written agreements were prepared. Highpoint
issued checks from the account to pay personal expenses
at the direction of Jack Rose. in addition, Mr. Rose was
issued a debit card for this account. He used this card to
pay personal expenses, including a family vacation. An
example of Mr. Rose’s use of the account was that for the
period of June 1 to June 30, 2010, debit card and AtM
withdrawals totaled $5,181.83. Ex. 20 at p. 7. While Mr.
Aliniazee tracked Mr. Rose’s use of the Highpoint account
in a ledger account, Exhibit 16, he discussed in his June
30, 2014 deposition, expenses for a Rose family vacation
to Moab, utah which did not so appear. the reason these
expenses did not appear in the ledger was that they were
viewed as compensation for his services to Highpoint.
they would have instead appeared in a Highpoint issued
IRS Form 1099. Ex. 1 at pgs. 43-44. Another example of
the parties’ dealings would be a Highpoint 1099 for 2010
that reported $86,476.26 in nonemployee compensation
paid to Jack Rose from the Highpoint account that was
not reported in the general ledger. Ex. 30.

48a
Appendix C
16. Highpoint worked with Breakwater Equity
Partners LLC (“Breakwater”). According to Breakwater’s
original operating agreement of February 16, 2010, the
Roses held a 40% interest without making a capital
contribution. Ex. 12 at pgs. 8-9. the assistant vice
president of Mr. Rose’s real estate consulting company
apparently prepared the original Breakwater operating
agreement and was under the impression that Mr. Rose
should sign it as a member. However, Mr. Rose instructed
her to instead prepare it for Mr. Aliniazee’s signature. Ex.
13. Highpoint no longer has an interest in Breakwater and
Jack Rose today owns all interests. Mr. Aliniazee also
owns Commercial Workout Consulting LLC (CWOC”).
Mr. Rose was issued a CWOC debit card as well, which
he also used to pay personal expenses, such as multiple
cash ATM withdraws during September of 2010. Ex. 21
at pgs. 10-18. He made deposits into the CWOC Chase
bank account and used it in part to wire payments to his
bankruptcy attorney in November of 2010. Ex. 35 at p. 17.
When the CWOC account wasn’t large enough to cover
the wire transfer, he authorized Mr. Aliniazee to transfer
$7,000 from the Highpoint account to the CWOC account.
Id. at 16. this account was also used to wire transfer
funds to the attorney for the Rose personal bankruptcy in
December, 2010. Id. at pgs. 19-20. Jack Rose was in control
of his funds in both accounts. Mr. Aliniazee also prepared
a 2010 Form 1099 for Jack’s nonemployee compensation
from CWOC, reflecting compensation not included in the
CWOC general ledger.
17. Mr. Aliniazee was aware that Jack Rose had
judgments pending against him, including the $8 million

49a
Appendix C
Meridian Bank judgment. In December of 2010, the
witness was aware creditors were trying to collect from
the Roses. Jack Rose was compensated as a third party
consultant by receiving one third of the revenue from
consulting work he brought to Highpoint. Ex. 1 at p. 69.
From early 2010, instead of receiving a paycheck, Mr.
Aliniazee would pay Jack Rose’s personal expenses,
such as a family vacation in Utah and ATM withdrawals
in Las Vegas. Id. at 70. the reason Mr. Rose used the
Highpoint account was because he wanted to choose the
creditors that would be paid, including attorneys and
his living expenses.1 Ex. 1 at p. 83. Mr. Aliniazee was
aware that Meridian or some other creditor could have
garnished money in the Highpoint account. In December
of 2010 Meridian Bank served Highpoint with a Superior
Court garnishment. Ex. EE. On December 17, 2010, Mr.
Aliniazee answered on behalf of garnishee Highpoint that
Jack Rose was not an employee and Highpoint did not
anticipate owing “earnings” to Mr. Rose within sixty days
of the service of the writ. Ex. 28 at p. 2. 2 At the time of
the garnishee answer, Mr. Aliniazee knew Mr. Rose was
going to subsequently deposit the Rose tax refunds into
the Highpoint account. indeed, a few days after the answer
was filed, the Roses’ state tax refund was deposited into
the account. Ex. 1 at p. 71. One day prior to the garnishee
answer, Jack Rose deposited a Ramada Inn University
1. It took trustee’s counsel some time to obtain this
testimony. Ex. 1 at pgs. 79-83.
2. Garnishee Highpoint was represented by the same legal
firm that would subsequently represent the Roses in their personal
bankruptcy. Ex. 28 at 1.

50a
Appendix C
paycheck of $2,951.98 into the account. Ex. 19 at pgs.
101-02. In March of 2011, Mr. Aliniazee went to Superior
Court regarding the Highpoint answer.
18. At the March 11 Superior Court hearing, Mr.
Aliniazee testified that Highpoint was a bankruptcy
administration and strategy company that previously used
Jack Rose as a consultant. it was possible, but not probable
that Highpoint would use Mr. Rose again as a consultant.
Ex. 11 at pgs. 14-17. The Superior Court Judge stated in
part: “… we don’t know, and, apparently, your client’s not
willing to volunteer when or if Mr. and Mrs. Rose, or both,
is going to be engaged in activities which would give rise
to a collection effort, so – so I’m not going to be a party to,
if you will, High Point Management’s participation in the
Roses’ avoidance of their debt.” Id. at p. 11. in response to
this judicial concern, Highpoint’s attorney stated: “And I
understand that, Your Honor, and I don’t think that we’re
not willing to volunteer any information.” Id. (emphasis
added). Yet, in his subsequent testimony, Mr. Aliniazee
did not volunteer either that Highpoint was allowing Mr.
Rose access to its banking account or that the parties had
signed two formal agreements regarding deposit of the
Roses’ tax refunds. Nor did he volunteer that Jack Rose
paychecks were being deposited into the account or that
Mr. Rose was making withdrawals from it. He did not
volunteer this although he knew the Superior Court Judge
did not want Meridian to be misled. The witness denies
that his state court testimony misled Meridian. When
Mr. Aliniazee was served with the garnishment writ, he
talked to Jack Rose about it. Ex. 1 at p. 78. in a proposed
email to Irene Beard of January 6, 2011, sent to Mr. Rose

51a
Appendix C
for approval, the witness wrote that “We” (meaning Jack
Rose and himself) were “. . .in the middle of sparing with
Meridian Bank . . .” Jack Rose knew the results of the
garnishment hearing, which were important to him and
was pleased with the results.
Testimony of Vanessa Rose
19. Prepetition, both the paycheck of Mrs. Rose and
her personal bank account were garnished by creditors. in
late 2010 and early 2011 Mr. and Mrs. Rose were expecting
state and federal tax returns. upon receipt she endorsed
both checks, which amounted to approximately $316,000,
a significant amount to the Roses. On June 7, 2011 she
provided sworn testimony at a creditor’s meeting that she
had read the bankruptcy schedules and they were true and
correct. Ex. 9 at p. 5. She provided testimony about Jack
Rose’s $25,000 in gambling losses within the last year. The
schedules Ms. Rose signed provided information about the
couple’s joint employment income in 2009 to 2011 and her
separate non-employment rental income in 2009 and 2010.
Ex. 43 at questions 1 and 2. She also provided testimony
about other income sources for the marital community. Id.
at pgs. 11-16. However, she did not mention the receipt of
$316,000 in tax refunds in her testimony.
20. In the Roses’ original SOFA, Ms. Rose’s nonemployment income from rental property was not listed.
Ex. 42 at question 2. Later, it was amended to include her
rental income. Their anticipated tax refunds were not
included. Ex. 43 at Question Two. She did not learn of the
deposit of the refunds into the Highpoint account until a

52a
Appendix C
deposition conducted in May of 2014. Their September
of 2013 amendment of Schedule B was the first time the
Highpoint account was listed in their 2011 bankruptcy. She
signed an assignment of an interest in property located
in North Goodyear, Arizona on September 15, 2009. The
assignment was not listed in the original SOFA. It was
reported in the second amendment to the statement. The
court finds that at the request of others, Ms. Rose will
agree to sign legal papers without really understanding
what they represent.
21. On cross examination Ms. Rose testified that she
is a registered nurse with 25 years-experience. Ms. Rose
was not involved in her husband’s real estate business, but
would sign documents when requested to do so. The couple
divorced in December of 2013 after a five-year separation.
She didn’t discuss her husband’s business with him and
had no role in selecting the attorneys or accountants
for their bankruptcy. While she signed the bankruptcy
schedules and statements and testified concerning their
correctness at the creditor’s meeting, she only provided
her own personal banking and financial information for
the bankruptcy papers. She did not mention the expected
tax refunds at the creditors’ meeting because she wasn’t
asked about them and didn’t believe they were income.
Ms. Rose filled out her portion of the bankruptcy forms
correctly and believed Mr. Rose was going to fill out his
portion correctly. That is why she signed the forms as
true and correct. Ex. 9 at p. 36. She endorsed the refund
checks and gave them to Jack Rose without knowing what
was done with them. Id. at p. 35.

53a
Appendix C
22. The factfinder’s assessment of this witness is that
she was uncooperative during her direct testimony by
trustee’s counsel. Her insistence that she knew nothing
about her husband’s business conflicts with her willingness
to certify in writing that she had read the bankruptcy
schedules and statements dealing with the business
and that such reported matters were true and correct.
Nevertheless, the factfinder believes her assertions on
non-involvement in Jack Rose’s business to be credible.
Testimony of Jack D. Rose
23. Jack Rose chose to put his funds into the Highpoint
account because he had a need to pay his criminal defense
and bankruptcy attorneys and other personal expenses.
He was under criminal indictment and needed to be able
to pay defense counsel. There were a number of judgments
against him at the time. He knew any bank accounts in
his name would be garnished. In fact, prepetition one
Rose bank account was garnished. Mr. Rose read his
bankruptcy schedules and statements and certified them
as true, although they did not list the Highpoint account
or his use of it. in his deposition, he stated he had the
Highpoint account in mind as he signed his bankruptcy
papers. Likewise, the failure to list the expected tax
refunds did not affect his view of the bankruptcy papers
as true. Mr. and Mrs. Rose signed on May 6, 2011 the
appointment application for their bankruptcy attorney,
which listed a $40,000 retainer as coming “. . . from an
affiliated entity Highpoint Management Solutions, LLC
. . .” rather than more accurately stating it came from
the Roses’ funds in a Highpoint account. Ex. 46 at P. 3,

54a
Appendix C
§5. The Roses’ bankruptcy firm had represented the
Highpoint entity in the state court garnishment litigation.
Regardless of this connection, it is Mr. Rose’s testimony
that it did not occur to him to clarify that the funds used
to retain his bankruptcy counsel did not actually belong
to Highpoint. The court does not find this testimony to
be credible.
24. A second counsel appointment application was
filed on Mr. Rose’s behalf. This application was very
important to him as it authorizes retention of Wilenchik to
represent him in the criminal case. Counsel’s supporting
affidavit contains an incorrect statement when asserting
that the firm’s receipt of $137,600 for representation came
“. . .from High Point Management Solutions, LLC . . .” and
that “No funds of the Debtors were used to make these
pre-petition payments.” Ex. 47 at affidavit p. 5, §12. 3 Mr.
Rose assumes that criminal defense counsel made the
assumption that since they received the retainer in a wire
from Highpoint, that it was Highpoint’s funds. He denies
stating to counsel that the retainer did not come from
the Roses’ personal funds. Jack Rose managed an entity
known as Civica Development, LLC. (“Civica”). Civica also
filed a 2011 bankruptcy case within the District of Arizona.
Case No. 2:11-bk-13137-CGC. On May 6, 2011 he signed a
bankruptcy counsel appointment application in that case
stating counsel’s retainer comes “… from an affiliated
entity Highpoint Management Solutions, LLC . . .” rather
than from debtors’ funds held in a Highpoint account. Ex.
3. This court does not find or believe that such incorrect
statements were intentionally made by counsel.

55a
Appendix C
48 at p. 3, §5. Additionally, counsel’s supporting affidavit
states that counsel “. . . received retainer funds in 2
installments from affiliated entity Highpoint Management
Solutions, LLC . . .”4 Ex. 48 at affidavit p. 2, § 6a. While
Mr. Rose admits this application contains incorrect
statements, he insists they were clarified in the Civica
SOFA.
25. On June 20, 2011, debtors’ amended SOFA, signed
by both Mr. and Mrs. Rose, was filed in their bankruptcy.
This amended statement and the original failed to list
a transfer of real property (“the NEMO transfer”)
which the Roses previously made as consideration for
the transferee’s payment of their legal bills. See Ex. 43
at P. 12, § 10. This transfer was not reported in debtors’
bankruptcy until the filing of an amended statement in
September of 2013, after the trustee sued the debtors in
May regarding the transfer.
26. In late 2010, Irene Beard sought an assignment
from the Roses of their anticipated tax refunds as security
for her debt. Mr. Rose instructed Mubeen Aliniazee to
tell her that the Roses could not help her. Nor was Ms.
Beard provided with any information about the anticipated
refunds. On June 3, 2010, the Roses stipulated to entry of a
judgment in favor of Meridian Bank for $8 million, bearing
interest at 21 % per annum. Ex. 22. Mr. Rose was aware
that the bank was attempting to collect this judgment
from their assets and that Rose bank accounts were at
risk of seizure or garnishment. At this same time, he was
4. See fn. 3, id.

56a
Appendix C
aware of the anticipated receipt of state and federal tax
returns. He was the person who decided to deposit these
funds into Highpoint.
27. At a June 30, 2011 meeting of creditors, Mr. Rose
testified concerning the deposit of the refunds. Ex. 10 at
p. 63. “Part of the reason” for this deposit was to place
them with Highpoint, rather than in a Rose account where
they would be available for creditor seizure. Id. at pgs. 6263. in February of 2011, Highpoint transferred $100,000
of Rose funds to Mr. Rose’s criminal defense counsel as
an advance retainer and not as payment of an existing
legal bill. this created a credit balance with counsel. Id.
at pgs. 63-64. On the date the Roses filed bankruptcy,
defense counsel applied the retainer to the existing Rose
bill, giving them a zero balance and transferred the
remainder to the Roses’ bankruptcy counsel. A similar
practice occurred with another Rose legal counsel. Id.
at p. 65. Mr. Rose’s testimony on June 30, 2011 was that
these law firm transfers exhausted all the Rose funds
in the Highpoint account. Id. However, at the time of
his September 22, 2015 trial testimony, he recognized
that this prior testimony was in error and that at the
petition date some Rose funds remained in the Highpoint
account. This completed the witness’ direct testimony.
Counsel agreed cross examination would resume later.
The court as fact finder views Mr. Rose’s direct testimony
in response to the trustee’s questions as occasionally
argumentative and evasive.

57a
Appendix C
Testimony of David Reaves
28. David Reaves began his participation in this
case as an appointed Chapter 11 trustee. As trustee,
he pursued avoidance actions post-petition against the
Roses’ attorneys and recovered a six figure amount for
creditors. Complaining creditors led him to question
the NEMO transfer and at the time of his September
22, 2015 trial testimony, he had a possible settlement
pending for between $700,000 and $800,000 regarding
Rose pre-petition transfers. None of the challenged Rose
pre-petition transfers were originally listed or accurately
described in debtors’ original schedules or statements in
his opinion.
29. On cross examination Mr. Reaves testified he
has been a licensed attorney since 1987. He is neither
a certified public accountant nor a fraud examiner and
does not function as a financial advisor, except through
his eleven years of experience as a bankruptcy trustee.
As reflected in the transcript of proceedings, Jack Rose
was extensively questioned about his use of the Highpoint
account at the June 30, 2011 bankruptcy creditors’
meeting. Ex. 10. Meridian Bank’s counsel questioned
Mr. Rose about his use of the Highpoint account at this
meeting. Id. at p. 67. Creditor Zygmunt, LLC’s counsel
also questioned Mr. Rose on the use of Highpoint’s
account. Id. at pgs. 63-66. Mr. Reaves’ recollection was
that the United States Trustee’s representative directed
debtors to amend their existing schedules to reflect use
of the Highpoint account. The court finds the trustee’s
recollection is correct. See id. at pgs. 65-66.

58a
Appendix C
30. Debtors’ bankruptcy counsel’s appointment
application of May 10, 2011, reporting receipt of a
$40,000 retainer “. . . from an affiliated entity Highpoint
Management Solutions, LLC . . .” was on file and available
to creditors prior to the continued creditors’ meeting. Cf.
Ex. 46 at p. 3 with Ex. 10 at p. 6. No party objected to
counsel’s application and the court approved it on May
17, 2011. The Rose SOFA filed on May 27, 2011 listed the
bankruptcy counsel retainer of $40,000 as occurring in
three separate transfers from January 11, 2011 through
May 6, 2011. Ex. 42 at p. 9 of 16, § 9. Debtors were
instructed in the SOFA to list the payor, if it was other than
debtors. Highpoint was not listed. Id. Debtors’ application
to employ Mr. Rose’s criminal defense counsel as special
bankruptcy counsel was filed on June 16, 2011 and also
was available for creditor review prior to the continued
creditors’ meeting. Ex. 47. The bankruptcy court approved
this application on July 5, 2011. Mr. Reaves believes that
even though no estate funds were proposed to be used to
pay defense counsel, this application is still misleading
by stating that counsel “ . . . will receive a total advance
deposit in the amount of $100,000 from an entity that
is affiliated with the debtors, Highpoint Management
Solutions, LLC, for Wilenchik & Bartness’s [sic] retainer
for the Criminal Action . . .” Ex. 47 at p. 3 of 7. This
factfinder agrees.
31. the Civica application to retain general bankruptcy
counsel (the same counsel that represents the Roses in
their personal bankruptcy) was filed on May 10, 2011 and
was available for review by creditors prior to the June 7,
2011 Civica meeting of creditors. Ex. 48; Ex. A. While

59a
Appendix C
Mr. Reaves did not review the Civica meeting transcript
before filing this adversary, he still contends he properly
investigated the Roses’ dealings prior to litigating.
The witness emphasized that the counsel application is
misleading since it states that Civica bankruptcy counsel
received “. . . a total retainer in the amount of $20,000
from an affiliated entity Highpoint Management Solutions,
LLC . . .” Ex. 48 at p.3, ¶ 5. Mr. Reaves further asserted
that while the Civica SOFA disclosed the retainer (in two
transfers), it failed to list the Roses as the non-debtor
payors, as the statement instructs. Ex. I at p. 4, § 9.
Accordingly, the false impression is given that debtor
Civica is the payor. This factfinder agrees.
32. The trustee is the only party filing this complaint
against the Roses. Mr. Reaves did not speak to Rose
bankruptcy counsel before doing so. in other litigation, the
trustee has recovered $50,000 from the Roses’ criminal
defense counsel and $44,000 from bankruptcy counsel.
A Highpoint ledger as of December 2, 2011 reflects that
Irene Beard’s entity, Touchstone AZ-Central Properties
LLC, received $248.29 on January 12, 2011 and again on
April 4, as well as $496.58 on March 22, 2011 from the
Highpoint account. Ex. 16 at pgs. 1-2. Assuming arguendo
that Highpoint checks were used to pay the touchstone
lease, Mr. Reaves doesn’t know if this is evidence that the
Roses were not attempting to hide use of the Highpoint
account from certain creditors to pay personal bills. He
believes this because he does not consider Ms. Beard to be
a large creditor in this case, although she filed bankruptcy
litigation against the Roses that was dismissed by
stipulation. Adversary No. 12-00672-GBN.

60a
Appendix C
33. In answer to the court’s questions, Mr. Reaves
testified that he brought this complaint against the Roses
because their original statements and schedules were
false and misleading. In his judgment, debtors’ primary
violation was failure in their original SOFA to list their
transfers of funds into and out of the Highpoint account
and the NEMO transfer in Section ten. On recross
examination, the witness conceded that attempted
concealment of the NEMO transfer was not referenced
in either his complaint or the JPS. The court finds Mr.
Reaves testified competently and credibly concerning his
decision to institute this litigation.
Testimony of Kathy Robinson
34. Although plaintiff did not rest his case, defendants
began presenting their evidence by calling Ms. Kathy
Robinson. She was employed as Civica’s Assistant
Property Manager from 2007 through 2009. During this
time the company had 20-25 employees and 30-40 real
estate projects in the Phoenix west valley. Jack Rose
asked her to take over responsibility for escrow closings
in late 2007 or 2008. When his personal assistant left,
Ms. Robinson assumed that role. In 2009 Civica ceased
operating and Mr. Rose asked her to join him at a
Caldwell Banker agency. She subsequently left to work
at Highpoint, a bankruptcy administration company. She
left Highpoint in June of 2013. to her knowledge, Mr. Rose
was not a Highpoint employee. Part of her Highpoint job
was to place blank company checks on Mubeen Aliniazee’s
desk for signature. She has a recollection that payments
were made for the Roses to Irene Beard using Highpoint

61a
Appendix C
checks. Ms. Robinson assisted the Roses in filling out their
bankruptcy papers, but didn’t discuss with Jack Rose
the use of the Highpoint bank account or its inclusion or
exclusion from the schedules.
35. On cross examination, the witness testified that
Mr. Rose would direct her concerning the bank account
where a check should be deposited. An example would be
her email to him of November 8, 2010 asking whether she
should deposit a received check into the Highpoint account.
Ex. 36 at p. 8. He would also direct her regarding payment
of his personal expenses by Highpoint checks. She had
an email exchange on December 1, 2010, informing him
that the Rose Washington Federal bank account had been
garnished by a creditor. Id. at pgs. 2-4. Ms. Robinson
emailed Mr. Rose on December 21, 2010, congratulating
him on receipt of a tax refund check and promising to
advise Mr. Aliniazee of instructions regarding its deposit.
Id. at p. 6. She sought his instructions on August 12, 2010
regarding what to do with an invoice received from Mr.
Rose’s criminal counsel and in January of 2011, advised
him that Irene Beard wanted to speak with him. Id. at
pgs. 1, 12.
36. She also dealt with Ms. Rose and her affairs. For
example, Ms. Robinson handled sending a certified check
to Ms. Rose’s landlord of $19, 553 in January of 2011 and
ensured that Mr. Rose and Mr. Aliniazee were informed
that it had been received. Ex. 35 at pgs. 3-7. Vanessa Rose
would also bring her documents used to prepare the Rose
Income Tax Returns. Id. at pgs. 22-23. Ms. Robinson
communicated with her regarding payment of Ms. Rose’s

62a
Appendix C
automobile insurance renewal in August of 2010. Ex. 36
at p. 5. On March 11, 2011, she informed Ms. Rose that
the check for the Rose housekeeper was ready and that
“. . . Mubeen has to go to the Courthouse at the same
time.” Id. at p. 11. The witness’ testimony is that she was
unaware of the purpose of Mr. Aliniazee’s Courthouse
appointment. 5 On redirect examination, she testified she
continues to manage Mr. Rose’s personal finances. The
factfinder’s assessment of Ms. Robinson is that there is
no reason to question her credibility.
....
....
Testimony of Mubeen Aliniazee
37. Mubeen Aliniazee testified on direct examination
in the defense case that he has a Master’s Degree in
finance from Loyola University. In 2005 he was the
controller of Civica and worked with approximately
30 individual or group investors in its projects. When
the recession occurred, he left Civica and joined Jack
Rose at Caldwell Banker Commercial, to do accounting
work in the consulting division. He formed the business
entities MMA Consulting and CWOC and in 2009 started
Highpoint. the intent was for Highpoint to work as a
bankruptcy administrator, while Mr. Rose’s Breakwater
5. The factfinder notes Mr. Aliniaze had a March 11, 2011
Superior Court appearance regarding the Meridian garnishment
of Highpoint. Ex. 11.

63a
Appendix C
entity (“Breakwater”) would consult in business workouts.
Pursuant to a 2010 agreement, Breakwater would bring
in clients for Highpoint.
38. Mr. Rose, in exchange for bringing in clients was
allowed to use Highpoint’s bank account for his personal
finances and was issued a debit card.6 Rose deposits and
withdrawal activity in the account would be tracked
through an expense category in Highpoint’s general ledger
by Mr. Aliniazee or Ms. Robinson. At the time of the
witness’ testimony, Jack Rose had produced three clients
for Breakwater that generated income. Mr. Rose started
making deposits into the account in 2010, which would
include his paychecks from other sources. Ms. Robinson,
who was a full time employee of Mr. Aliniazee’s entities,
was utilized to work on the Rose transactions since she
was used to working with the Rose personal finances.
Exhibit 16 is a tracking ledger reflecting use of the account
by Mr. Rose as of December 2, 2011.
39. When an invoice was received, reflecting a need to
pay a creditor, Ms. Robinson would prepare the Highpoint
check and Mr. Aliniazee would sign it. Examples of the
use of the Highpoint account would include checks to Mr.
Rose’s criminal attorney on October 13, 2010 for $10,000,
December 10, 2010 for $40,775 and $40,000 on December
28, 2010. Id. at p. 1. On February 16, 2011, the Rose federal
income tax refund of $231,506.79 was deposited, which
cured a previously existing negative balance of Rose funds
6. It appears the card was issued for Mr. Aliniazee’s CWOC
entity. See Ex. 36 at p. 7.

64a
Appendix C
in the account. Id. Jack Rose never asked Mr. Aliniazee
to not mention the Rose use of the Highpoint account to
other parties or to refrain from stating that this use was
an attempt to hinder, delay or defraud Rose creditors.7
The witness is aware that Rose payments to Touch
Stone were made using Highpoint checks. Given this,
Mr. Aliniazee volunteered his belief that Ms. Beard had
all the information she needed to initiate a garnishment
on Highpoint to collect her judgment against the Roses.
40. At the time of the Rose bankruptcy, $1,325.41 of
Rose funds remained in the Highpoint account. After
the petition filing, Mr. Rose made no further deposits
into the account. Prior to the actual receipt of the Roses’
tax refunds, he discussed with Mr. Aliniazee their
contemplated deposit. As a result, the witness created
agreements dated December 27, 2010 and February 15,
2011 to establish these were not Highpoint funds. Exs. 17,
18. Based on the Rose SOFA, their debts were primarily
business, not consumer debts in the witness’ opinion. Ex.
42 at p. 2, § 3. Mr. Aliniazee did not personally help Mr.
Rose complete his bankruptcy schedules and statements.
After the filing, no one challenged the accuracy of
7. While this is Mr. Aliniazee’s testimony, this factfinder
does not find this to be credible evidence that such extraordinary
use of a business banking account by a person who was neither an
owner nor an officer or employee of the business was not intended
to accomplish just such a purpose. The witness is a sophisticated
financial entrepreneur who was a personal friend of the Roses and
aware of their financial difficulties. It does not appear likely to this
factfinder that he could be totally unaware of such a motivation by
the Roses.

65a
Appendix C
Highpoint’s tracking of Rose expenses and the trustee
did not request that Highpoint turn over the remaining
Rose funds of $1,325.41 or ask to meet with Mr. Aliniazee.
41. Highpoint was served with a December 2, 2010
garnishment by Meridian seeking to determine if Jack
Rose was an employee. Ex. EE at p. 3. Accordingly, Mr.
Aliniazee limited his response to just this subject, which
was filed through legal counsel. Ex. 28 at pgs. 2-3. He was
not asked whether Highpoint was holding any Rose assets,
either by Meridian or any other creditor. it is possible the
witness was aware of the Meridian Judgment of $8 million
prior to service of the garnishment writ.
42. Subsequently a Superior Court hearing was
conducted regarding the garnishment answer. At the
time Mr. Aliniazee was served with process, Highpoint
records indicated that $13,690 in Rose funds were on
hand. The witness did not consider them to be Rose
earnings from Highpoint. When served with the state
court process, the witness notified Jack Rose. Mr. Rose
did not instruct him as to how the writ should be handled,
nor to hide the account from creditors. Nor did Mr. Rose
so instruct Mr. Aliniazee prior to the Superior Court
hearing. The factfinder does not find this testimony from
a friendly witness to be credible evidence that this was
not debtors’ intent in using the account. See fn. 7, id. At
the March 11, 2011 hearing, neither the court nor any
creditor’s counsel asked the witness if Highpoint held
funds or assets belonging to the Roses. Mr. Aliniazee
answered all questions asked. Ex. 11 at pgs. 14-17. Had a
party inquired regarding Highpoint holding Rose funds,

66a
Appendix C
the witness would have truthfully answered. 8 He denies
intending to mislead the Superior Court.
43. Mr. A liniazee had IRS 1099 -MISC forms
prepared for Mr. Rose’s 2010 nonemployee compensation
of $86,476.26 from Highpoint and $3,531.45 from CWOC.
Exs. 30, 31. Additionally, he agreed to Mr. Rose receiving
compensation in part through CWOC paying Rose
expenses. to his knowledge, Ms. Rose was not involved
in Mr. Rose’s business affairs, except to sign legal papers
upon request. On cross examination the witness testified
he continues to have a business relationship with Mr. Rose
through the Breakwater entity.
44. In answer to the court’s questions, Mr. Aliniazee
testified he became friends with Jack Rose through their
joint involvement in Civica. Mr. Rose approached him and
asked if he could deposit his paychecks into the Highpoint
banking account. Mr. Aliniazee’s testimony is that he
never asked Mr. Rose why he wanted to use the account.
Nor did he find this to be an unusual request, although
8. Thus Mr. Aliniazee takes the same position as the Roses: any
misapprehensions were caused by the creditors’ own failure to ask
the right questions. The factfinder is aware this witness was under
no legal duty to make it easier for creditors to collect from his friend
Mr. Rose. But courts ordinarily assume they will receive forthright
answers from sworn witnesses. The witness apparently did not hear
his own attorney’s response to the Superior Court Judge’s admonition
that the court would not be a party to Highpoint’s participation in the
Roses’ avoidance of their debt: “And I understand that, Your Honor,
and I don’t think that we’re not willing to volunteer any information.”
Ex. 11 at p. 11. Apparently counsel’s understanding was incorrect.

67a
Appendix C
no one else had ever made such a request of him in his
business career. The factfinder finds this to be remarkable
testimony that strains credibility. The factfinder’s
assessment of this witness is that he is a very likeable,
sophisticated, educated and experienced entrepreneur.
He cannot be considered an impartial witness, given the
unusual level of support and accommodation he granted to
his friend. His explanation of certain events is not credible
in the view of this factfinder.
Testimony of Scott Evans
45. Scott Evans testified as a forensic accountant
for the trustee. He concluded the Highpoint account
was used by the Roses for personal living expenses.
His May 27, 2014 report concluded that deposits/inflows
of $411,285 in Rose funds passed into the account and
outflows of $438,708 occurred, resulting in a deficiency
in the Highpoint account of $27,423. Ex. 32 at p. 2. The
largest recipients of Rose funds were law firms. On cross
examination he testified that although he has testified
twice before as an expert in Bankruptcy Court, he is not a
certified fraud examiner. Mr. Evans found only one error
in the Highpoint ledger tracking Rose transactions. Ex.
16. Ninety percent of the outflows were for legal, housing
or accounting services for the Roses.
Testimony of Christopher G. Linscott
46. Christopher G. Linscott testified as a certified
fraud examiner with a Master’s Degree in Accounting. He
previously testified as an expert in Bankruptcy Court 15-

68a
Appendix C
20 times. Mr. Linscott served as a trustee in Chapter 11
and 7 bankruptcy cases and has been retained in Chapter
11 cases as a financial advisor. In his experience, schedules
and statements frequently must be amended in complex
Bankruptcy cases. in his opinion, the deposits of Rose
tax refunds into the Highpoint account was not required
to be disclosed in debtors’ SOFA. Ex. 33 at p. 2 at ¶2.
However, transfers to third parties of Rose funds would
be a required disclosure. Id. Since he feels the refunds’
receipt need not be disclosed in the Statement, the witness
believes that parties seeking information regarding
receipt of tax refunds are required to directly ask about
this, rather than rely on debtor’s filed documents. He
reviewed the report of the trustee’s forensic expert and
agrees that use of the Highpoint account for deposits
and transfers benefitted debtors. Mr. Linscott testified
debtors’ decision to pay the attorney creditors had no
economic impact on the estate, but concedes it might
subject the transferees to preference litigation.
47. On cross examination, Mr. Linscott testified
Debtors’ original SOFA did not accurately reflect their
transfer of the tax refunds out of the Highpoint account.
Ex. 42. Nor did it reflect multiple payment transfers to
debtors’ certified public accountant. Id. His conclusion
that the deposit of tax refunds into Highpoint was not
required to be disclosed is based upon his own definition
of “transfer.” in his opinion such a deposit does not
constitute a “transfer.” Responding to the court’s question,
Mr. Linscott testified debtors’ SOFA did not comply with
bankruptcy disclosure requirements until their third
amended Statement filed September 30, 2013. Ex. 45.

69a
Appendix C
Until the third amendments, prior amended bankruptcy
papers did not comply with disclosure requirements. The
factfinder evaluates both Mr. Evans and Mr. Linscott as
fully qualified, independent expert witnesses. The court,
however, is not in agreement with Mr. Linscott’s view that
the prepetition attorney fee transfers had no economic
impact on the bankruptcy estate.9
48. Debtors made a speaking motion to strike the
trustee’s testimony regarding debtors’ non-disclosure
of the NEMO transfer, given that it was not plead in his
complaint and was not identified in the Joint Pretrial
Statement. Following oral argument, the court denied
the motion, ruling that while the evidence could not be
considered as an independent grounds for liability, it could
be considered as surrounding circumstances possibly
relevant on the issue of intent. the Plaintiff then rested
his case in chief.
Testimony of Jack D. Rose
49. Through his testimony, Jack D. Rose narrated a
life history that is both impressive and inspiring. Growing
up in Mohave County, Arizona and Needles, California as
the child of a single parent household, Mr. Rose worked
since the age of twelve. He put himself through school. In
his case, school included graduation from Yale University
9. Prepetition preferences of creditors impact bankruptcy’s
goals of equal creditor treatment. This is why trustees are authorized
to pursue and collect them for proper allocation among creditors. 11
U.S.C. § 547(b). This is precisely what occurred in this case. Finding
of fact 28, supra.

70a
Appendix C
and Harvard Law School. Prior to returning to school to
graduate, he was elected to the Mohave County Board of
Supervisors. Following law school, he worked for Bank of
America in bond underwriting. Mr. Rose was Executive
Director of a state agency and then practiced real estate
and land use law. Early in this century he began his own
development career in the West Phoenix metropolitan area
with up to 75 real estate projects. He was also involved in
banking, including serving as a founding chairman of the
Sonoran Bank, an institution serving principally Hispanic
customers. Mr. Rose had interests in solar equipment
manufacturing, defense technology, a construction
company and a commercial real estate brokerage. By
2008 his projects had grown a one million dollar initial
investment into one hundred million dollars of value.
50. By September of 2008, the bulk of his investments
were in commercial property. When the credit markets
froze all his projects were either under construction or
unimproved real estate with short term construction
loans. All his bank debt was personally guaranteed by
himself and Ms. Rose. No creditor would agree to grant
long term permanent loans or extend existing short term
financing. His equity was wiped out and the majority of
the Rose projects could not be salvaged. With no other
income source available in 2008-2009, he concentrated his
attention on his commercial realty brokerage and work as
a consultant regarding work out or liquidation servicing in
a declining real estate market. Eventually he wound down
these efforts due to changes in the market and unspecified
personal difficulties. At the time of his testimony, his three
children were aged from 11 to 15.

71a
Appendix C
51. He had previously utilized Civica as his main or
holding company. A different entity would be formed for
each of his projects. Each entity would be composed of
passive investor members and Mr. Rose would provide
management through an entity manager. At one time
he had 100 investors. A former Mayor of Phoenix was
a general partner for one transaction. Since he had
40 or so projects, he operated with project managers,
accountants and a personal staff. His personal finances
were managed by a personal assistant. Then and now, his
personal assistant was Kathy Robinson. His wife Vanessa
was an experienced registered nurse, but had no interest
or background in finance. Her role was simply to sign
papers, such as personal guarantees, upon request with
no personal involvement in the project or transaction.
52. Debtors’ original SOFA disclosed the various
entities in which they held interests. Ex. 42 at pgs. 13-14.
Most recent transactions involved their foreclosure with
no equity salvaged. On occasion as the market dropped,
Mr. Rose would invest his personal funds in attempts to
save them. After the market crashed, the Roses received
nothing from the entities listed in the SOFA. Before the
crash, he had never been personally sued by an investor.
The SOFA listed cases filed against debtors post-crash,
most involving personal guarantees. Mr. Aliniazee and
Ms. Robinson physically prepared the lists reflected in
the SOFA, although Mr. Rose reviewed their work.
53. A May 2011 summary for debtors’ bankruptcy
schedules and SOFA listed a number of creditor judgments
entered against the Roses. Ex. 41 at pgs. 23-26. Two

72a
Appendix C
investor suits are still pending, following the dismissal
of a third. in his view, a settling investor who reneged on
a settlement and was politically connected, wrongfully
brought a criminal complaint against Mr. Rose. It took
three and a half years to obtain the state prosecutor’s
dismissal of the case at a personal cost of at least $500,000.
The prosecution and attorney fees occurred at a time
when he wasn’t working. Mr. Rose feels he now has
claims against the complaining investors that he would
like to litigate. Additionally, they brought an Arizona Bar
complaint against him, which also was dismissed. The
criminal matter alleged that he spent $35,000 in investor
funds in the Able Commercial Ventures matter at a time
when he had already resigned as manager. Mr. Rose
denied this occurred. The pending prosecution made it
impossible for him to engage in business in Arizona, so it
was important to have criminal defense representation.
54. The witness attempted to avoid bankruptcy
by discussing claims with investors. Mr. Rose became
acquainted with Ms. Beard when approached by a group
of investors who were about to lose their investment. He
was able to resolve their problem and ultimately gained
Ms. Beard as an investor. A subsequent dispute that arose
was ultimately settled by a February 18, 2009 stipulation
in which Rose entities transferred assets to Ms. Beard’s
touch Stone entity and the Roses agreed to a stipulated
judgment of $460,000 against them. Exs. Y, V at p.
15. He contends that the stipulated personal property
assignments and the Roses’ payment of $10,000 cash
resulted in Ms. Beard receiving nearly everything the
Roses owned. Later that year, the Roses leased back from

73a
Appendix C
touchstone a large quantity of the personal property they
had transferred to the creditor. Personal property lease of
October 21, 2009, ex. u. Mr. Rose agreed he and Ms. Beard
had discussions concerning the transfer of expected tax
refunds to her. However, no formal assignment was ever
signed by him. By the time of his receipt of the refunds
in 2010, he had been criminally indicted and his highest
priority was payment of his criminal defense attorneys. He
feels he was cooperative with Ms. Beard. However, in his
testimony he chose to characterize her as a convicted felon
who used unconventional collection methods against him.
55. Mr. Rose’s other creditors were largely banks of
which M & i Bank was the largest. He was able to settle
litigation with M & I and Citizen’s Banks. He was not
able to settle with Meridian and a judgment was entered.
Other creditors also received judgments against debtors.
the witness asserts that between 2009 and 2010, he lost
approximately $135 million in net worth. The Roses’
marriage broke up. Mr. Rose testified he supports his
children and pays spousal maintenance to Ms. Rose. He
asserts he has suffered medical and psychological issues.
56. the witness received work out consultation business
in California and worked with and for Mr. Aliniazee on
several projects in California and Tucson, Arizona. He
had to work and travel without a credit card, which was
problematic. This was solved by Mr. Aliniazee providing
him with several debit cards issued to Aliniazee’s entities.
Mr. Aliniazee also paid some of Mr. Rose’s expenses and
issued IRS 1099 Forms for non-business payments made
to him. Ms. Robinson, by then a Highpoint employee, did

74a
Appendix C
the accounting for these transactions. in 2010, following
the indictment, other work opportunities dried up and
the Mr. Rose became dependent on work from Highpoint.
Eventually the Highpoint work also disappeared. Exhibit
16 is an example of the tracking of Highpoint payments
of compensation and other disbursements to Mr. Rose.
57. Mr. Rose needed a bank account for deposits and
withdrawals, as well as a way to pay his attorneys. He
had closed his account at Washington Federal after it was
garnished by Meridian in December of 2010. Ex. Q at p.
742. His testimony is that he deposited his paychecks into
the Highpoint account even before learning that a creditor
was attempting garnishment and prior to closing the
Washington Federal account. His explanation was that
using two bank accounts simultaneously for a time, one
in his own name and one not, was to “. . . make it easy for
Kathy” (Robinson) to pay his personal bills. The factfinder
does not find this testimony credible. The witness argues
the fact Ms. Beard was paid her personal property lease
payments using Highpoint checks demonstrates he did
not use Highpoint to hinder creditors or conceal his funds
from garnishment. The factfinder does not agree. At the
time, it was Meridian, not Ms. Beard that constituted
the greatest threat to his intent to pay criminal and
bankruptcy counsel. His deposits into Highpoint were to
benefit himself and his family, not Highpoint. Mr. Rose
stated he had no legal obligation to facilitate collection
by creditors.
58. In December of 2010, Mr. Rose only had use of the
Highpoint account, as he had closed Washington Federal

75a
Appendix C
following the Meridian garnishment. On December 27,
2010 he chose to pay his criminal defense counsel by
depositing his tax refund into Highpoint and directing that
a check be drawn payable to counsel. His counsel cashed
the check the next day. A similar method was used upon
receipt on February 16, 2011 of the $231,506.79 tax refund:
he used Highpoint as his only open account. Counsel was
paid $137,600 on February 23, 2011. Mr. Rose insists he
had no intent to defraud his other creditors by use of the
Highpoint account to pay counsel. The factfinder finds it
difficult to believe this self-serving testimony.
59. Mr. Rose was still trying to avoid filing personal
bankruptcy in March of 2011. On April 29, 2011 he paid his
bankruptcy counsel $20,000. His accountants were paid
by Highpoint checks on March 16, March 30 and again
on May 6, 2011. The witness agreed that approximately
$301,000 of the $316,000 in tax refunds were paid to Rose
legal counsel or accountants. Ex. 32 at p. 2. Mr. Rose again
insists he had no intent to conceal funds from or defraud
his other creditors. The factfinder is dubious. Mr. Rose
intended that by the day before the petition date, that his
attorneys and accountants were to be paid and no Rose
funds were to be left in the Highpoint account. He chose
to make this happen by instructing Mr. Aliniazee and Ms.
Robinson to send whatever was left in the account to the
Rose bankruptcy counsel. They attempted to do so, but
inadvertently left $1,300 of Rose funds in the account at
the petition date. The witness downplayed this omission
by stating he actually owed Mr. Aliniazee that much for
his prepetition payment of a Rose family vacation.

76a
Appendix C
60. Mr. Rose and Mr. Aliniazee signed two separate
agreements on December 27, 2010 and February 15, 2011
clarifying that the refunds into Highpoint’s Chase Bank
account were Rose funds. Exs. 17, 18. in the Meridian
state court litigation, the Roses, represented by counsel,
responded specifically and in detail to Meridian’s Subpoena
Duces Tecum. Ex. 24. This response does not include any
mention of the Highpoint account. Id. at p. 2, § 2. Mr.
Rose defends this omission by insisting Meridian failed
to ask the right questions. He points to Meridian’s Third
Amended Subpoena Duces Tecum as a representative
example. Ex. 25. This subpoena demanded: “Statements
on all checking and savings accounts maintained by or
on behalf of the named Defendant/Judgment Debtor in
any depository wherever located . . .” Id. At Exhibit A,
§ 2. Mr. Rose’s position is that the Highpoint account
was not maintained by himself or Ms. Rose and was not
maintained on their behalf. The factfinder understands the
Highpoint account was a pre-existing business account that
presumably continued being used as such. Nonetheless the
court also understands that due to remarkable cooperation
between two friends, the account also began to be utilized
to receive Rose personal deposits and disburse checks to
select Rose personal creditors at Mr. Rose’s direction.
Obviously the Rose use of the Highpoint account was to
benefit themselves. Given this dual use as both a Highpoint
business account and a personal account used to benefit
the Roses, it should have been reported as such on debtors’
schedules or SOFA.10 It is difficult for the factfinder to
10. Since Mr. Rose testified he believed all Rose funds had
been “drained” at his instruction at the time of filing bankruptcy,
it presumably could have been reported at § 11 as a closed financial

77a
Appendix C
credit that an experienced, obviously intelligent and
well-educated businessman/attorney would make such an
interpretation in court pleadings, unless the object was
to conceal the account.
61. The witness’ testimony is that he discussed his
interpretation with legal counsel. No legal counsel was
called as a witness on this point. He was examined at a
debtor’s examination conducted in September of 2010.
He made no mention of the Highpoint account. Again
the witness posits that this was the creditor’s fault for
not asking the right question. Mr. Rose maintains he
answered every question and in his words was never
asked: “Hey, what else you got?” He states he was never
asked the general question whether he had additional
assets or whether he was using the bank account of
another party. Nor was he served with a general writ of
execution by Meridian. Mr. Rose testified Meridian served
a wage garnishment on Highpoint and a general writ of
execution on another entity. In his judgment, the writs
should have been reversed.
62. The indictment was a major impediment to Mr.
Rose’s ability to generate income. He denies any fraudulent
intent in disclosing information in his bankruptcy
documents. Since he was not capable of completing the
documents on his own, he relied on Mr. Aliniazee and
Ms. Robinson to do so. However, he reviewed all filings
account held for the benefit of the debtors in the SOFA. See Ex. 42
at p. 10 of 16. When debtors finally reported the account in 2013,
they placed it in § 2 of Schedule B. Ex. 45 at p. 1 of 16, which is also
appropriate.

78a
Appendix C
before he and Ms. Rose signed them. As an example,
the Summary of Schedules was reviewed by him after
it was prepared. Schedule A for real property lists only
Ms. Rose’s fee simple interest in $15,000 worth of realty
located in the Philippines. Id. at p. 3 of 30. the rest of the
Rose real estate had been lost by this time.
63. Debtors’ bankruptcy schedule B of personal
property lists five bank accounts, mainly those in Ms.
Rose’s name, but fails to include the Highpoint account.
Ex. 41 at Schedule B, p.1. The account was deliberately
omitted because Mr. Rose mistakenly believed that his
prepetition instructions to drain this account of Rose funds
had been followed. the Schedule F listing of unsecured,
nonpriority claims totals over 35 million dollars. Id. at pgs.
16-20. Mr. Rose insists that if their bankruptcy discharge
is lost, there is no possibility these debts can ever be paid.
He further states the actions he took were not wrong.
64. Continuing his direct testimony on April 28,
2016, Mr. Rose testified that Mr. Evans summarized
Rose deposits into the Highpoint account in his report.
Ex. 32 at exhibit A. Starting with the first deposit on
May 27, 2010 until December 16, 2010, he deposited
approximately $78,400 into this account. For the same
approximate period, May 27, 2010 through November
24, 2010, he utilized the Washington Federal account as
well, depositing a total of approximately $126,000. After
the December garnishment, no further deposits were
made at Washington Federal. It is his testimony that the
refund deposits into Highpoint were made because this
was his only open account and that he did not report this

79a
Appendix C
use to his creditors because he was never served with a
general writ of execution. The factfinder does not find this
assertion to be credible.
65. Schedule B fails to list the Highpoint account. Ex.
41 at p. 4 of 30. The instructions for this schedule state: “If
the property is being held for the debtor by someone else,
state that person’s name and address under ‘Description
and Location of Property.” Id. at instructions. this was
not done. Mr. Rose defends this omission by stating that
at the time he was under the mistaken assumption that
his directions had been followed and Highpoint had been
drained of Rose funds.
66. Once the case was converted to Chapter 7, its
only significant asset was tort litigation against the Able
Paterson parties (the complainants in the criminal case)
and Maricopa County, Arizona for wrongful prosecution.
Schedule B at § 21, Ex. 41 at p. 7 of 30. It takes four pages
to list all the litigation brought against debtors by the time
of their bankruptcy. Ex. 41 § 4 at pgs. 23-26. The SOFA
lists their business and employment income for 2009 to
2011 without including the tax refunds. Ex. 42 at p. 1 of 16.
this was not done because Mr. Rose believes such refunds
do not constitute income under accounting principles.
67. the witness conceded the original SOFA failed to
list a transfer that was required to be disclosed: the Sarves
transfer of $8,600. Id. at p. 9 of 16. Mr. Rose states that
this matter simply slipped his mind and the transfer was
disclosed in an amended statement. The Court finds this
testimony to be credible. The original SOFA failed to list

80a
Appendix C
the Highpoint bank account among the listings for closed
financial accounts. Id. at § 11, p. 10 of 16. His testimony
is that although he considered listing it, he did not do so
since the Highpoint account itself was not closed, although
he had directed Mr. Aliniazee to “close out” or “drain” all
funds from it. The factfinder does not find this proffered
excuse by an experienced businessman and attorney to
be credible. Regardless of this justification, Mr. Rose
testified he did subsequently list the Highpoint account
in amended filings.
68. The original SOFA listed the Roses’ interest in the
NEMO property as Ms. Rose’s membership in a business
entity under the name of North Goodyear Properties,
LLC. Ex. 42 at § 18A, p. 13 of 16. However, the SOFA
failed to disclose that this interest had been transferred
18 months prior. Id. at §10, p. 9 of 16. Mr. Rose asserts this
non-disclosure provided no benefits to the Roses. Their
Civica business entity also filed bankruptcy. The schedules
and statements were prepared by Mr. Aliniazee and Ms.
Robinson, not the Roses. Civica Development, LLC, No.
11-13137-PHx-CGC.
69. At the Roses’ first meeting of creditors on June 7,
2011, none of the creditors inquired of Mr. Rose regarding
the existence of undisclosed bank accounts such as
Highpoint. Ex. 9. Counsel for the u.S. trustee continued
the hearing to June 30 and required the Roses to provide
evidence of insurance on estate property, confirmation
that a separate debtor-in-possession account had been
opened, copies of Form K-1 from their 2009 tax return and
a copy of their 2010 tax return. Id. at p. 20. the witness

81a
Appendix C
testified he amended the SOFA to report rental income as
requested by the U.S. Trustee. Ex. 9 at pgs. 15-16; SOFA
of June 20, 2011 at § 2, p. 2 of 18.
70. It was at the continued creditors’ meeting of June
30, 2011 that the Roses were first questioned regarding
Highpoint. Ex. 10 at p. 17, 37-38, 47-50 (Creditor questions
regarding Highpoint as a business entity and the Roses’
relationship with it). Building on disclosures filed by the
Rose attorneys that Highpoint had paid their retainers,
creditor questions then probed use of Highpoint to deposit
tax refunds. Mr. Rose answered that he “. . . wanted to
make sure the lawyers got paid. And (sic) they paid the
lawyers on my behalf.” Id. at 50. The mechanics of the
Debtors’ use of the account was disclosed through further
creditor questioning. Id. at 51-54, 62-67. The presiding
officer directed that the SOFA had to be clarified to
disclose deposits into Highpoint of personal refunds and
transfer out to pay attorneys. Id. at 65-66. Further areas
of creditor interest were also explored, including whether
Mr. Rose ever held himself out to the public as an expert
in avoiding guaranty liability. The witness’ response: “It’s
certainly one of the areas where i have expertise.” He
could not recall specifically doing so, “But it could have
easily have happened.” Id. at pgs. 54-55.
71. The documents that apparently alerted creditor
attention to Highpoint transfers was counsels’ filed
disclosure documents of June 16, 2011, four days prior to
the continued creditors’ meeting. Debtors’ bankruptcy
counsel disclosed they (“DMYL”) “. . . received a total
retainer in the amount of $40,000 from an affiliated entity

82a
Appendix C
Highpoint Management Solutions, LLC for DMYL’s
retainer for the Bankruptcy Case . . .” Ex. 46 at P. 3 of 12,
§ 5. Also see id. at p. 8 of 12. Mr. Rose’s criminal defense
counsel disclosed “the debtors understand that counsel in
the Criminal Action cannot be paid from the bankruptcy
estate. . . . Accordingly, Mr. Rose has arranged to pay
Wilenchik & Bartness from non-estate funds as set forth
below and as described in the Wilenchik Statement….
Wilenchik & Bartness will receive a total advance deposit
in the amount of $100,000 from an entity that is affiliated
with the Debtors11, Highpoint Management Solutions,
LLC, for Wilenchik & Bartness’s (sic) retainer for the
Criminal Action. . . .” Ex. 47 P. 3 of 7, § 4. Also see id. at
pgs. 3, 5 and 6 of 9. While Mr. Rose did not draft defense
counsel’s application papers, he did review them before
they were filed. He failed to notice that defense counsel’s
declaration contained an incorrect statement: Counsel
believed that two prior pre-petition transfers totaling
$137,600 were Highpoint funds. Id. at p. 5 of 9, § 12. Debtor
testified that these pre-petition transfers were in fact
funds belonging to the Roses.
72. On cross examination, Mr. Rose testified that he
was able to grow a one million dollar legal contingency fee
into hundreds of millions of dollars through his business
operations. His background includes serving as chief
strategist for Breakwater, a bankruptcy and workout firm
and handling bankruptcy matters as an attorney. At the
11. This statement that Highpoint is affiliated with debtors
is legally incorrect. 11 u.S.C. § 101(2)(B). Given that Mr. Rose was
the source of counsels’ information, it is obvious that it was not a
knowing misrepresentation by the law firms. Also see, fn. 3, infra.

83a
Appendix C
time of filing of the Rose personal bankruptcy, he believed
that he could read and understand bankruptcy schedules
better than all but a few debtors. in addition, the Roses
were represented by a highly competent bankruptcy firm.
The witness first had a bankruptcy consultation with legal
counsel in November of 2009. The potential bankruptcy
debtor was Civica. He is unsure whether he also sought
personal bankruptcy advice from counsel at that time. In
his November 17, 2009 state court deposition, he testified
that his bankruptcy counsel was Mr. Jack Hebert. Ex.
5 at p. 37. As early as April of 2009 he was considering
bankruptcy protection for Civica. However, in an email
dated April 2, 2009 his tax attorney, in the context of
drafting a workout agreement with certain Rose creditors,
stated that Mr. Rose needed to consider whether he would
be filing a future personal bankruptcy case. Mr. Rose
received a copy of this email. Ex. 37 at pgs. 6-7.
73. Mr. Rose is aware of the requirement to list
all bank accounts. He also knew that if he left funds in
the Highpoint account, it would have to be listed in his
bankruptcy schedules, even if the account was not in
the Roses’ name. The account was not listed because
he believed his instructions to Mr. Aliniazee and Ms.
Robinson to drain the account had been followed. Ex. 41
at Schedule B, p. 4 of 30. It is his opinion that it would be
“senseless” for him to knowingly leave some $1,300 in
Highpoint. Yet Ms. Rose left some $2,100 in her personal
bank account, which was listed in the Rose schedules.
the witness did not notice the inclusion of cash in Ms.
Rose’s listed account at the time he signed the schedules.
Additionally, some $1,100 was left in a credit union account,

84a
Appendix C
which also appeared on the initial schedules. Id. Mr.
Rose testified the reason these accounts were not used to
deposit the refund checks and pay attorneys was because
they were in Ms. Rose’s name. The factfinder does not find
this rationale to be credible. instead an account that was
not listed in the Roses’ name was utilized. His testimony
is that Highpoint was not originally listed in the schedules
because he believed the account was not utilized for his
benefit. He believed this, although his use of the Highpoint
account was useful to Mr. Rose and served an important
purpose for him. The court does not find this testimony
to be reasonable or credible.
74. Later, he amended the schedules in September of
2011 to list the Highpoint account because it is “. . . better
to disclose too much and sooner rather than later and out of
an abundance of caution.”12 Ex. 45 at Schedule B, p. 1 of 16.
He concedes, however that this rationale of over disclosure
existed at the time of the original schedule filing in May
as it did in September. Mr. Rose agreed that knowing how
much cash is available is important to an entrepreneur
such as himself. He could have discovered the unreported
$1,300 in Highpoint prior to filing bankruptcy, but did not
do so. A ledger was maintained precisely to track what his
balance was in the Highpoint account. Ex. 16. Actually the
ledger reports a balance of over $21,000 in Debtors’ cash at
the petition date, but this was a mistake by Mr. Aliniazee
the witness testified. Corrections were made resulting in
an adjusted Rose cash balance of $1,325.41. Id. at p. 2 of
12. The factfinder believes it is more likely Mr. Rose did so
because the U.S. Trustee’s presiding officer directed him to do so at
the creditor’s meeting on June 20, 2011. Ex. 10 at pgs. 65-66.

85a
Appendix C
2. Knowing his cash balance in Highpoint was a priority
for Mr. Rose, but not the highest priority.
75. Another of his priorities was his perceived need
to have the tax refunds go to his criminal attorneys and
other professionals. He wanted to avoid the serious threat
of incarceration, which would imperil his ability to support
his family. The prospect of prison was feared more than
the fear of not paying his creditors. Nonetheless, when
Highpoint was garnished by Meridian, Mr. Rose took
no action, although in his deposition of July 11, 2014,
he testified he might have had a conversation with Mr.
Aliniazee regarding service of the garnishment writ or the
Superior Court garnishment hearing. Ex. 4 at pgs. 58-60.
While attempting to cash the tax refund checks was not
a real option for Mr. Rose, he made no attempt to open a
new account in his own name. The SOFA required listing
every transfer of property not in the ordinary course of
business over the previous two years. Ex. 42 at § 10, p.
9 of 16. Deposit of the refund checks into Highpoint was
not originally listed because Mr. Rose did not consider
such to constitute a transfer. Accordingly, he made a
conscious decision not to list the deposits. Likewise, a
$50,000 deposit from a Washington Federal account into
Highpoint was consciously not listed.
76. A bank statement for the Washington Federal
account reflects that following the June 3, 2010 entry of
a stipulated judgment for Meridian, a deposit of $101,308
was made on July 12, 2010. Ex. Q at p. 4 of 11. In the year
prior to filing bankruptcy, this was the largest deposit
made by the Roses into either the Washington Federal or

86a
Appendix C
the Highpoint accounts. Eight days following this deposit,
$91,000 was withdrawn in two separate transactions on
July 20. Id. Mr. Rose has no recollection where this money
went without further reviewing his records.
77. At the time he first started using the Highpoint
account there were no pending garnishments or
collection writs issued against the Roses, however, there
was multiple creditor litigation pending. The Debtors
subsequently amended their bankruptcy schedules to list
Ms. Rose’s receipt of rental income in order to make their
schedules accurate. However, this interim amendment
did not include listing their receipt of tax refunds, as Mr.
Rose contends they are not income. He is aware however,
that state tax refunds are taxable on federal income
tax returns13. technically, the federal refund included
$7,130.79 in interest, which the witness concedes would
be income for the Roses. In fact, this interest amount was
reported in the Roses’ 2011 federal tax return, although it
was not reported on their bankruptcy schedules. Since it
appears this omission was not identified by the trustee as
an issue under his cause of action, it is considered only as
part of the surrounding circumstances regarding debtors’
intent in regard to the concealment. See finding 79 infra.
78. Eighteen months prior to bankruptcy, the NEMO
transfer occurred, which produced value for the Roses.
While the NEMO property was mistakenly listed in the
wrong section of the schedules, the value debtors received
13. indeed, it appears his state and local tax refunds would
have been taxable on his 2010 return, but for the large amount of his
allowed itemized deductions. Ex. 29 at Statement 4, p. 54.

87a
Appendix C
from it was not scheduled. Part of the unreported value
received was an agreement by NEMO partners to pay
certain Rose personal expenses. An example of this was
Ms. Robinson’s email of August 12, 2010 to Mr. Rose
advising that at his request an invoice from criminal
defense counsel had been sent to NEMO partner Johnson
for payment. Ex. 36 at p. 1 of 20. The partner’s promise
to pay attorney fees in exchange for the NEMO transfer
had not been reported in the bankruptcy.
79. This concluded Mr. Rose’s cross examination.
His redirect testimony included that the $7,000 interest
as earnings line of questions had not been previously
mentioned or raised in the trustee’s complaint. His first
use of the Highpoint account was on May 27, 2010 and by
that time creditor Touch Stone had a judgment pending
against the Roses and had garnished Ms. Rose’s personal
account. Her interest in the NEMO entity that was
transferred was the right to participate in the entity’s
future profits. By the time of transfer, the real estate
market on the westside had collapsed. The original
SOFA that failed to list the Highpoint account, had been
prepared “months” prior to filing. Ex. 41 at p. 4 of 30 at
§ 2. Before the SOFA and schedules had been filed, Mr.
Rose instructed Mr. Aliniazee and Ms. Robinson to sweep
the account of all cash and relied on them to do so. The
bulk of the Rose cash balance in Highpoint went to pay
their attorneys. the defense then rested its case in chief
and no rebuttal case was presented.
80. The court finds Mr. Rose to be a highly intelligent
and experienced businessman and attorney, well

88a
Appendix C
acquainted with bankruptcy law and its requirements.
He also has an inspiring and impressive personal history.
the witness thoughtfully engaged in pre-bankruptcy
planning in an attempt to precisely control and limit
what was disclosed to his creditors. unsurprisingly, he
was a difficult witness for trustee’s counsel to examine
on occasion. As noted above, the factfinder has credibility
concerns with important aspects of his testimony.
81. to the extent any of the following conclusions of
law should be considered findings of fact, they are hereby
incorporated by reference.
CONCLUSIONS OF LAW
1. To the extent any of the above findings of fact
should be considered conclusions of law, they are hereby
incorporated by reference.
2. Jurisdiction of debtors’ bankruptcy case and of this
related adversary proceeding are vested in the united
States District Court for the District of Arizona. 28 U.S.C.
§ 1334(a). That court has referred all cases under Title 11
of the united States Code and all adversary proceedings
and contested matters to the United States Bankruptcy
Court for the District of Arizona. 28 U.S.C. § 157(a);
District Court General Order 01-15.
3. this adversary having been appropriately referred,
this court has core bankruptcy jurisdiction to enter a final
order and judgment, determining whether debtors should
be granted a discharge. 28 u.S.C. § 157(b)(2)(J). Further,

89a
Appendix C
the parties have expressly stipulated to this court’s core
jurisdiction. JPS at p. 2.
4. Under 11 U.S.C. § 727(a)(2) a bankruptcy discharge
can be denied when “… the debtor, with intent to hinder,
delay or defraud a creditor or an officer of the estate charged
with custody of estate property . . . has . . . concealed or has
permitted to be . . . concealed . . . property of the debtor,
within one year before the date of filing of the petition,”
§ 727(a)(2)(A) or “ . . . property of the estate, after the
date of the filing of the petition.” § 727(a)(2)(B). A party
seeking denial of discharge under § 727(a)(2) must prove
two things: (1) a disposition of property, such as transfer
or concealment and (2) a subjective intent on debtor’s part
to hinder, delay or defraud a creditor through the act of
disposition. Retz v. Samson (In re Retz), 606 F.3d 1189,
1200 (9th Cir. 2010). the party objecting to discharge
bears the burden of proving by a preponderance of the
evidence that the debtor’s discharge should be denied. Id.
at 1196. The fundamental purpose of the statute is to insure
that the trustee and creditors have accurate information
without having to conduct costly investigations. Id. the
court concludes Mr. Rose’s deliberate decisions frustrated
that fundamental purpose in this case.
5. Debtor’s intent need not be fraudulent to meet
the requirements of § 727(a)(2). Because the language
of the statute is in the disjunctive, it is sufficient if the
debtor’s intent is to hinder or delay a single creditor. Id.
Lack of injury to creditors is irrelevant for purposes of
denying a discharge in bankruptcy. Retz, 606 F.3d at
1200. In examining the circumstances of a disposition

90a
Appendix C
under § 727(a) (2), certain “badges of fraud” may be useful
in supporting a finding of the necessary intent. These
factors, not all of which need be present include14 (1) a close
relationship between the transferor and the transferee;
(2) that the transfer was in anticipation of a pending suit;
(3) that the transferor debtor was insolvent or in poor
financial condition at the time; (4) that all or substantially
all of the debtor’s property was transferred; (5) that the
transfer so completely depleted debtor’s assets that the
creditor has been hindered or delayed in recovering any
part of the judgment. Id. Many of those factors are present
here, including the close relationship between Mr. Rose
and Mr. Aliniazee, use of the concealed account in the face
of entered judgments and pending collection activities,
occurring when the Debtors were in poor financial
condition and that virtually all of an extremely large set
of tax refunds were concealed, frustrating Meridian’s
ongoing discovery and collection activities.
6. While the three disjunctive intent elements of
§ 727(a)(2)(A) are distinct, there is inevitably some
overlap. Fraud is the most severe, but hindrance or delay
is sufficient. Beauchamp v. Hoose (In re Beauchamp), 236
B.R. 727, 731-32 (9th Cir. BAP 1999). the Ninth Circuit
14. While Retz phrases the factors in terms of a “transfer,”
it recognizes that disposition through concealment also implicates
§ 727(a)(2). Id. this case involves disposition through deposit into
a concealed bank account. Nevertheless, the factors will be used
infra to analyze debtors’ intent in making the disposition. The sixth
factor, that debtor received inadequate consideration for the transfer,
does not appear useful in examining intent regarding deposits into
a concealed, unreported bank account. Retz at 1200.

91a
Appendix C
has adopted the continuing concealment doctrine for a
disposition that occurs prior to the one-year requirement
under § 727(a)(2)(A), when debtor retains the secret benefit
of the disposition within the period. Hughes v. Lawson
(In re Lawson), 122 F.3d 1237, 1240-42 (9th Cir. 1997).
Based on these authorities, this court has little difficulty
in finding and concluding that Mr. Rose intentionally
concealed his use and interest in the Highpoint account
both before and after filing bankruptcy to hinder and
delay his creditors, principally Meridian. The factfinder
notes Mr. Rose claims expertise in avoiding guarantee
liability and as a chief strategist for a bankruptcy and
work out firm and as an attorney handling bankruptcy
cases. Findings of fact (“findings”) 70, 72.
7. Beauchamp, id. is instructive. there a friendly
party, debtor’s attorney wife, opened a bank account
for the purpose of depositing debtor’s checks. Id. at 729.
The account was in her name alone and she was the sole
signatory. Regardless, the two understood the money was
his. In the two months between the opening of the account
and his bankruptcy, debtor deposited endorsed checks
totaling $14,776.85. At bankruptcy filing, the $10,935.20
account balance was not disclosed on his schedules. upon
learning of an unfriendly creditor’s intent to examine both
debtor and his wife, debtor amended his schedules six days
prior to his scheduled creditors’ meeting. Nonetheless,
the Bankruptcy Court subsequently denied his discharge,
finding debtor’s failure to disclose the account prior to
his amendment evidenced his intent to hinder or delay
creditors. The appellate panel affirmed. Beauchamp
at 729. Here prepetition, Mr. Rose was permitted by

92a
Appendix C
his friend access to Highpoint’s pre-existing business
account to receive deposits and issue checks to favored
Rose creditors and attorneys. The Rose name appeared
nowhere on the account and he was not a signatory. use of
the account was not originally listed in debtors’ schedules.
Existence of the account was not reflected in amended
schedules15 until after creditors had an opportunity to
(1) review counsel’s appointment papers that mentioned
receipt of Highpoint checks and (2) question Mr. Rose
about the Highpoint account at the continued first meeting
of creditors. Findings at ¶¶ 1-2, 6, 10, 14-17, 23, 29-31, 3436, 38-40, 44, 57-61, 63-65, 67, 69-71, 73-75, 79.
8. As almost always occurs, there are factual
differences between the cited case and this proceeding.
it appears the Beauchamp account was originally
established to conceal debtor’s funds. 236 B.R. at 729.
Here the Highpoint account was originally established
and continued to be used as the entity’s business account.
Further, Mr. Rose testified he began use of the account
prior to entry of judgments against him and as an aid
in managing his business travel expenses. No matter.
Clearly, even if the original intent of using a bank
account in which the Rose name does not appear as their
personal account was relatively benign, its function clearly
15. This court agrees with debtors’ own expert witness that
the bankruptcy schedules did not correctly disclose use of the
Highpoint account until the third amended filing on September 30,
2013. Finding 47. Of course, the relatively small number (ten) of
creditors or counsel who chose to attend the continued creditors
meeting of June 30, 2011 would have earlier learned of this disclosed
use through creditors’ questions. Ex. 10 at pgs. 4-6 of 72.

93a
Appendix C
changed as the Roses’ prospects darkened. As litigation
and resulting large judgments multiplied and a criminal
indictment appeared, Mr. Rose was forced to reconcile
two powerful forces: his intent to expend hundreds of
thousands of dollars for a top litigator in his criminal
defense,16 using in large part expected large refunds,
with the collection pressure exerted by Meridian to
discover collectable assets. While a difficult predicament,
he chose an impermissible solution: pre and post-petition
concealment of funds held in someone else’s bank
account. it does appear the undisclosed funds were not
squandered, but instead used for the legitimate purpose
of paying attorneys and other creditors more favored by
the Roses than creditors such as Meridian. Regardless,
this does not create a safe harbor for the Debtors under
the facts of this case. Beauchamp squarely rejected the
argument of legitimate business purpose, ruling that
since the inference of fraudulent behavior flowing from
a concealment is greater than from a transfer, where
the transaction involves secreting funds, the analysis is
less favorable for the debtor. 236 B.R. at 731. the court
concludes the trustee has established the inference of
16. While the Roses wish to present this challenge as a
“Hobson’s choice” between prison or paying creditors or between
losing a bankruptcy discharge and paying creditors, this is manifestly
not the case. Dismissing an improvidently founded indictment does
not inevitably cost over $500,000 in the American justice system.
Federal and state judges continually strive to ensure both high
standards and accessibility in criminal defense counsel, including
in appointed counsel and public defenders. Mr. Rose chose to travel
the criminal justice system in a Cadillac, rather than a Chevrolet
and concealed a bank account in order to do so.

94a
Appendix C
fraudulent behavior by a preponderance of the evidence.
Further, defendants have failed to rebut this showing. to
the extent debtors are attempting to rely on the advice
of counsel defense, they failed to support Mr. Rose’s selfserving testimony with testimony or declarations from
counsel. Debtors’ reliance on this defense must be in good
faith. Advice of counsel is not a defense when the erroneous
information should have been evident to the debtor. Nor is
it a viable defense to a claim of fraud when the debtors have
not made full disclosure of the relevant facts to counsel.
Retz at 1199, 1202. the court concludes that this defense
was not adequately established by debtors.
9. the result for Ms. Rose is different. it is clear to
the Court that Ms. Rose is truly the person presented in
the defense case, a wife and mother, pursuing an entirely
separate career as a registered nurse. Her activities
relevant to this case appear confined to signing her name
to legal and contractual papers when requested by her
husband and too readily agreeing that the bankruptcy
papers she signed were true and correct. See findings
19-22, 43, 51. The Court concludes the plaintiff did not
establish his case against her by his requisite burden.
Accordingly, denial of her discharge will not be granted.
See, Lansdowne v. Cox (In re Cox), 41 F.3d 1294, 1299 (9th
Cir. 1994) (Debtor wife will not be denied her discharge
where she reasonably relied on her husband to maintain
the books and records). Also see, First Texas Savings
Assoc. v. Reed (In re Reed) 700 F.2d 986, 993 (5th Cir.
1983) (Intent to defraud under § 727 must be shown for
each debtor, the Code does not allow attribution of intent
from spouse to spouse); Gannett v. Carp (In re Carp), 340

95a
Appendix C
F.3d 15, 26 (1st Cir. 2003) (the sins of the husband are
not automatically visited upon the wife. The existence
of a marital relationship does not itself prove an agency
relationship).
10. the court is to grant debtors a bankruptcy
discharge, unless they knowingly and fraudulently in or
in connection with the case made a false oath or account.
11 U.S.C. § 727(a)(4)(A). To prevail on this claim, the
plaintiff must show by a preponderance of the evidence,
that (1) debtors made a false oath in connection with the
case; (2) the oath related to a material fact; (3) the oath
was made knowingly and (4) was made fraudulently. Retz
v. Samson (In re Retz), 606 F.3d 1189, 1197 (9th Cir. 2010).
As to non- disclosure of the Highpoint account, the Court
has already ruled that Mr. Rose intended to hinder and
delay Meridian both pre-petition and for a short period
post-petition, until the time of his continued creditor’s
meeting. Conclusions of law (“conclusions”) 6-8 supra.
Presumably he believed he had avoided the problem of
not listing Rose funds in Schedule B by instructing the
always cooperative Mr. Aliniazee and Ms. Robinson to
“drain” Highpoint of the funds by transferring them to
Rose attorneys as a prepayment. Findings 27, 59, 63, 65,
67, 73-74; ex. 41 at p. 4 of 30. Accordingly, the failure to
originally list the account in Schedule B was not made
knowingly and fraudulently. However the same belief that
his instructions to transfer all the funds to his attorneys
as a prepayment was followed completely, should have
motivated Mr. Rose to list it as a transfer or as a closed

96a
Appendix C
account17 in the original SOFA. Ex. 42 at §§ 10, 11, pgs.
9-10 of 16. Given the surrounding circumstances of his
clear intent to conceal the Highpoint funds for use as
attorney fees, the Court finds the decision to exclude it
from the original SOFA was a knowing, fraudulent false
oath by a chief strategist for a bankruptcy and workout
firm, who at the time of filing his own bankruptcy, believed
he could read bankruptcy schedules better than all but a
few debtors. Findings 70, 72. As to Ms. Rose, again the
court cannot find significant involvement by her in the
decision not to report use of the Highpoint account in
the bankruptcy papers. Her unrebutted trial testimony
was that she did not learn of the deposit of the Rose tax
refunds into the Highpoint account until a deposition
conducted in May of 2014. Finding 20. Accordingly, the
court concludes she does not share in Mr. Rose’s liability
under § 727(a)(4)(A).
11. to the extent the trustee argues that additional
omissions in the original schedules also impose § 727(a)(4)
(A) false oath liability, i.e. the transfer of $90,000 proceeds
from Ms. Beard’s loan to Ms. Rose’s mother and then to
the Breakwater entity, failure to list the prior transfer of
the NEMO property interest, the court must be mindful
of the complexity of debtors’ bankruptcy schedules and
17. The court presumes this account remained open for its
more conventional use as a Highpoint business account. The relevant
use however, is its use by debtors. Once it completed its role as a
concealed depository for funding of attorneys and other favored
creditors, Mr. Rose intended the transfer out of all remaining Rose
funds, thus functionally closing it as an account “. . . for the benefit
of the debtor . . .” Ex. 42 at § 11.

97a
Appendix C
statements. Claims of more than $35 million, names of
more than 50 entities in which debtors held interests,
21 law suits and five foreclosures were required to be
listed. Defense Post trial brief at 6, dkt. 115. See, exs.
41, 42. These omitted items lack immediate connection
with Mr. Rose’s overriding objective to use tax refunds
to pay his attorneys without interference from unfavored
creditors.18 Accordingly, the Court has not been convinced
these additional omissions were done knowingly and
fraudulently.
12. the trustee did little at trial or in the post-trial
briefs to support his liability theory under 11 u.S.C.
§ 727(a)(7). Elements of the statute require plaintiff to (1)
establish a violation under Code §§ 727(a)(2), (3), (4), (5)
or (6); (2) establish that the violation occurred during or
within one year before the filing of an insider’s bankruptcy
case, and (3) the actions taken were in connection with
the insider’s case. See, In re Kyung S. Song, 449 B.R.
84, 97 (Bankr. N.D. Cal. 2011). The trustee’s amended
complaint alleged that in the related Civica bankruptcy,
the debtor’s application to retain counsel stated counsel’s
$20,000 retainer came from affiliated entity Highpoint.
In reality, the funds clearly were debtor’s personal
monies. See First Amended Complaint at ¶¶ 16-18, 5053. Dkt. 15. the application was signed by Jack Rose as
manager of Civigroup Companies LLC, the managing
member of debtor Civica Development, LLC. Assuming
18. the consideration for the NEMO transfer was the
recipient’s promise to pay Rose defense attorney fees. It is unclear
however, what role the omission of this transfer would play in the
mission to conceal use of the Highpoint account.

98a
Appendix C
arguendo that debtors are insiders of Civica Development,
plaintiff did not meet his requisite burden of proof that
the statement by Mr. Rose as manager of another entity
constituted a distinct violation of a 727(a) subsection by
debtors personally.
ORDER
The trustee’s amended complaint against Mr. Rose
is sustained in part. Pursuant to §§ 727(a)(2)(A) and
727(a)(4)(A), he and the marital community of Jack D.
Rose and Vanessa Palma Rose19 will not be granted
a discharge in debtors’ bankruptcy case. In all other
respects, the trustee’s complaint will not be sustained
and will be dismissed with prejudice. Ms. Rose, if eligible,
will be granted a discharge when it is administratively
appropriate to do so in the bankruptcy case.
ORDERED ACCORDiNGLY.

19. In Arizona, where the community benefitted from one
spouse’s wrongful acts by having family expenses paid from funds
obtained thereby, the community is liable for the acts. In re Kirkland,
2008 WL 8444824 at pgs. 13-14 (B.AP. 9 th Cir. 2008) (unpublished,
citing cases). Use of the concealed refunds to pay criminal and
bankruptcy attorney fees of family members would clearly appear
to be a family expense.

99a
AppendixOF
D REhEaRING OF
APPENDIx D — DENIaL
ThE UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT, FILED APRIL 1, 2019
uNitED StAtES COuRt OF APPEALS
FOR thE NiNth CiRCuit
No. 17-16196, No. 17-16239
D.C. No. 2:16-cv-03868-hRh
JACK D. ROSE AND VANESSA PALMA ROSE,
Debtors-Appellants,
v.
DAViD M. REAVES, ChAPtER 7 tRuStEE,
Trustee-Appellee.
––––––––––––––––––––––––––––––
JACK D. ROSE; VANESSA PALMA ROSE,
Debtors-Appellees,
v.
DAViD M. REAVES, ChAPtER 7 tRuStEE,
Trustee-Appellant.
April 1, 2019, Filed

100a
Appendix D
Before: hAWKiNS, M. SMith, and huRWitZ, Circuit
Judges.
ORDER
the panel has voted to deny Appellants’ petition for
rehearing.
Judges Smith and hurwitz have voted to deny the
petition for rehearing en banc, and Judge hawkins so
recommends. the full court has been advised of the
petition for rehearing en banc and no judge of the court
has requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
Appellants’ petition for rehearing and petition for
rehearing en banc are DENiED.

101a
E STATUTORY
APPENDIx E —Appendix
RELEVANT
PROVISIONS
11 u.S.C. § 101
In this title the following definitions shall apply:
***
(54) the term “transfer” means-(A) the creation of a lien;
(B) the retention of title as a security interest;
(C) the foreclosure of a debtor’s equity of
redemption; or
(D) each mode, direct or indirect, absolute or
conditional, voluntary or involuntary, of disposing
of or parting with-(i) property; or
(ii) an interest in property.
****

102a
Appendix E
11 u.S.C. § 547
(a) in this section-(1) “inventory” means personal property leased or
furnished, held for sale or lease, or to be furnished
under a contract for service, raw materials, work in
process, or materials used or consumed in a business,
including farm products such as crops or livestock,
held for sale or lease;
(2) “new value” means money or money’s worth
in goods, services, or new credit, or release by a
transferee of property previously transferred to
such transferee in a transaction that is neither void
nor voidable by the debtor or the trustee under any
applicable law, including proceeds of such property,
but does not include an obligation substituted for an
existing obligation;
(3) “receivable” means right to payment, whether or
not such right has been earned by performance; and
(4) a debt for a tax is incurred on the day when such
tax is last payable without penalty, including any
extension.
(b) Except as provided in subsections (c) and (i) of this
section, the trustee may avoid any transfer of an interest
of the debtor in property-(1) to or for the benefit of a creditor;

103a
Appendix E
(2) for or on account of an antecedent debt owed by the
debtor before such transfer was made;
(3) made while the debtor was insolvent;
(4) made-(A) on or within 90 days before the date of the filing
of the petition; or
(B) between ninety days and one year before the
date of the filing of the petition, if such creditor at
the time of such transfer was an insider; and
(5) that enables such creditor to receive more than
such creditor would receive if-(A) the case were a case under chapter 7 of this
title [11 uSCS §§ 701 et seq.];
(B) the transfer had not been made; and
(C) such creditor received payment of such debt to
the extent provided by the provisions of this title
[11 uSCS §§ 101 et seq.].
(c) The trustee may not avoid under this section a
transfer-(1) to the extent that such transfer was--

104a
Appendix E
(A) intended by the debtor and the creditor to or
for whose benefit such transfer was made to be a
contemporaneous exchange for new value given to
the debtor; and
(B) in fact a substantially contemporaneous
exchange;
(2) to the extent that such transfer was in payment of
a debt incurred by the debtor in the ordinary course
of business or financial affairs of the debtor and the
transferee, and such transfer was-(A) made in the ordinary course of business or
financial affairs of the debtor and the transferee; or
(B) made according to ordinary business terms;
(3) that creates a security interest in property acquired
by the debtor-(A) to the extent such security interest secures
new value that was-(i) given at or after the signing of a security
agreement that contains a description of such
property as collateral;
(ii) given by or on behalf of the secured party
under such agreement;
(iii) given to enable the debtor to acquire such
property; and

105a
Appendix E
(iv) in fact used by the debtor to acquire such
property; and
(B) that is perfected on or before 30 days after the
debtor receives possession of such property;
(4) to or for the benefit of a creditor, to the extent that,
after such transfer, such creditor gave new value to or
for the benefit of the debtor-(A) not secured by an otherwise unavoidable
security interest; and
(B) on account of which new value the debtor did
not make an otherwise unavoidable transfer to or
for the benefit of such creditor;
(5) that creates a perfected security interest in
inventory or a receivable or the proceeds of either,
except to the extent that the aggregate of all such
transfers to the transferee caused a reduction, as of
the date of the filing of the petition and to the prejudice
of other creditors holding unsecured claims, of any
amount by which the debt secured by such security
interest exceeded the value of all security interests
for such debt on the later of-(A)
(i) with respect to a transfer to which subsection
(b)(4)(A) of this section applies, 90 days before
the date of the filing of the petition; or

106a
Appendix E
(ii) with respect to a transfer to which subsection
(b)(4)(B) of this section applies, one year before
the date of the filing of the petition; or
(B) the date on which new value was first given
under the security agreement creating such
security interest;
(6) that is the fixing of a statutory lien that is not
avoidable under section 545 of this title [11 uSCS §
545];
(7) to the extent such transfer was a bona fide payment
of a debt for a domestic support obligation;
(8) if, in a case filed by an individual debtor whose
debts are primarily consumer debts, the aggregate
value of all property that constitutes or is affected by
such transfer is less than $ 600; or
(9) if, in a case filed by a debtor whose debts are not
primarily consumer debts, the aggregate value of
all property that constitutes or is affected by such
transfer is less than $ 6,825.1
(d) The trustee may avoid a transfer of an interest in
property of the debtor transferred to or for the benefit of
a surety to secure reimbursement of such a surety that
furnished a bond or other obligation to dissolve a judicial
1. Dollar amount as adjusted by the Judicial Conference of
the United States. See Adjustment of Dollar Amounts notes set
out under this section and 11 U.S.C.A. § 104.

107a
Appendix E
lien that would have been avoidable by the trustee under
subsection (b) of this section. The liability of such surety
under such bond or obligation shall be discharged to the
extent of the value of such property recovered by the
trustee or the amount paid to the trustee.
(e)
(1) For the purposes of this section-(A) a transfer of real property other than fixtures,
but including the interest of a seller or purchaser
under a contract for the sale of real property,
is perfected when a bona fide purchaser of such
property from the debtor against whom applicable
law permits such transfer to be perfected cannot
acquire an interest that is superior to the interest
of the transferee; and
(B) a transfer of a fixture or property other than
real property is perfected when a creditor on a
simple contract cannot acquire a judicial lien that
is superior to the interest of the transferee.
(2) For the purposes of this section, except as provided
in paragraph (3) of this subsection, a transfer is made-(A) at the time such transfer takes effect between
the transferor and the transferee, if such transfer
is perfected at, or within 30 days after, such time,
except as provided in subsection (c)(3)(B);

108a
Appendix E
(B) at the time such transfer is perfected, if such
transfer is perfected after such 30 days; or
(C) immediately before the date of the filing of the
petition, if such transfer is not perfected at the
later of-(i) the commencement of the case; or
(ii) 30 days after such transfer takes effect
between the transferor and the transferee.
(3) For the purposes of this section, a transfer is
not made until the debtor has acquired rights in the
property transferred.
(f) For the purposes of this section, the debtor is
presumed to have been insolvent on and during the 90 days
immediately preceding the date of the filing of the petition.
(g) For the purposes of this section, the trustee has the
burden of proving the avoidability of a transfer under
subsection (b) of this section, and the creditor or party
in interest against whom recovery or avoidance is sought
has the burden of proving the nonavoidability of a transfer
under subsection (c) of this section.
(h) The trustee may not avoid a transfer if such transfer
was made as a part of an alternative repayment schedule
between the debtor and any creditor of the debtor created
by an approved nonprofit budget and credit counseling
agency.

109a
Appendix E
(i) If the trustee avoids under subsection (b) a transfer
made between 90 days and 1 year before the date of the
filing of the petition, by the debtor to an entity that is not
an insider for the benefit of a creditor that is an insider,
such transfer shall be considered to be avoided under this
section only with respect to the creditor that is an insider.

110a
Appendix E
11 u.S.C. § 727
(a) the court shall grant the debtor a discharge, unless-(1) the debtor is not an individual;
(2) the debtor, with intent to hinder, delay, or defraud
a creditor or an officer of the estate charged with
custody of property under this title, has transferred,
removed, destroyed, mutilated, or concealed, or has
permitted to be transferred, removed, destroyed,
mutilated, or concealed-(A) property of the debtor, within one year before
the date of the filing of the petition; or
(B) property of the estate, after the date of the
filing of the petition;
(3) the debtor has concealed, destroyed, mutilated,
falsified, or failed to keep or preserve any recorded
information, including books, documents, records, and
papers, from which the debtor’s financial condition or
business transactions might be ascertained, unless
such act or failure to act was justified under all of the
circumstances of the case;
(4) the debtor knowingly and fraudulently, in or in
connection with the case-(A) made a false oath or account;

111a
Appendix E
(B) presented or used a false claim;
(C) gave, offered, received, or attempted to obtain
money, property, or advantage, or a promise
of money, property, or advantage, for acting or
forbearing to act; or
(D) withheld from an officer of the estate entitled
to possession under this title, any recorded
information, including books, documents, records,
and papers, relating to the debtor’s property or
financial affairs;
(5) the debtor has failed to explain satisfactorily,
before determination of denial of discharge under this
paragraph, any loss of assets or deficiency of assets to
meet the debtor’s liabilities;
(6) the debtor has refused, in the case-(A) to obey any lawful order of the court, other
than an order to respond to a material question
or to testify;
(B) on the ground of privilege against selfincrimination, to respond to a material question
approved by the court or to testify, after the
debtor has been granted immunity with respect
to the matter concerning which such privilege was
invoked; or

112a
Appendix E
(C) on a ground other than the properly invoked
privilege against self-incrimination, to respond to
a material question approved by the court or to
testify;
(7) the debtor has committed any act specified in
paragraph (2), (3), (4), (5), or (6) of this subsection, on
or within one year before the date of the filing of the
petition, or during the case, in connection with another
case, under this title or under the Bankruptcy Act,
concerning an insider;
(8) the debtor has been granted a discharge under
this section, under section 1141 of this title [11 uSCS §
1141], or under section 14, 371, or 476 of the Bankruptcy
Act [former 11 USCS § 32, 771, or 876], in a case
commenced within 8 years before the date of the filing
of the petition;
(9) the debtor has been granted a discharge under
section 1228 or 1328 of this title [11 uSCS § 1228 or
1328], or under section 660 or 661 of the Bankruptcy
Act [former 11 USCS § 1060 or 1061], in a case
commenced within six years before the date of the
filing of the petition, unless payments under the plan
in such case totaled at least-(A) 100 percent of the allowed unsecured claims
in such case; or

113a
Appendix E
(B)
(i) 70 percent of such claims; and
(ii) the plan was proposed by the debtor in good
faith, and was the debtor’s best effort;
(10) the court approves a written waiver of discharge
executed by the debtor after the order for relief under
this chapter [11 USCS §§ 701 et seq.];
(11) after filing the petition, the debtor failed to
complete an instructional course concerning personal
financial management described in section 111 [11
USCS § 111], except that this paragraph shall not apply
with respect to a debtor who is a person described in
section 109(h)(4) [11 USCS § 109(h)(4)] or who resides
in a district for which the United States trustee (or
the bankruptcy administrator, if any) determines that
the approved instructional courses are not adequate
to service the additional individuals who would
otherwise be required to complete such instructional
courses under this section (The United States trustee
(or the bankruptcy administrator, if any) who makes
a determination described in this paragraph shall
review such determination not later than 1 year after
the date of such determination, and not less frequently
than annually thereafter.); or
(12) the court after notice and a hearing held not more
than 10 days before the date of the entry of the order
granting the discharge finds that there is reasonable
cause to believe that--

114a
Appendix E
(A) section 522(q)(1) [11 USCS § 522(q)(1)] may be
applicable to the debtor; and
(B) there is pending any proceeding in which the
debtor may be found guilty of a felony of the kind
described in section 522(q)(1)(A) [11 USCS § 522(q)
(1)(A)] or liable for a debt of the kind described in
section 522(q)(1)(B) [11 USCS § 522(q)(1)(B)].
(b) Except as provided in section 523 of this title [11
USCS § 523], a discharge under subsection (a) of this
section discharges the debtor from all debts that arose
before the date of the order for relief under this chapter
[11 USCS §§ 701 et seq.], and any liability on a claim that
is determined under section 502 of this title [11 uSCS §
502] as if such claim had arisen before the commencement
of the case, whether or not a proof of claim based on any
such debt or liability is filed under section 501 of this title
[11 USCS § 501], and whether or not a claim based on any
such debt or liability is allowed under section 502 of this
title [11 uSCS § 502].
(c)
(1) the trustee, a creditor, or the united States trustee
may object to the granting of a discharge under
subsection (a) of this section.
(2) On request of a party in interest, the court may
order the trustee to examine the acts and conduct of
the debtor to determine whether a ground exists for
denial of discharge.

115a
Appendix E
(d) On request of the trustee, a creditor, or the united
States trustee, and after notice and a hearing, the court
shall revoke a discharge granted under subsection (a) of
this section if-(1) such discharge was obtained through the fraud of
the debtor, and the requesting party did not know of
such fraud until after the granting of such discharge;
(2) the debtor acquired property that is property of
the estate, or became entitled to acquire property
that would be property of the estate, and knowingly
and fraudulently failed to report the acquisition of or
entitlement to such property, or to deliver or surrender
such property to the trustee;
(3) the debtor committed an act specified in subsection
(a)(6) of this section; or
(4) the debtor has failed to explain satisfactorily-(A) a material misstatement in an audit referred to
in section 586(f) of title 28 [28 USCS § 586(f)]; or
(B) a failure to make available for inspection all
necessary accounts, papers, documents, financial
records, files, and all other papers, things, or
property belonging to the debtor that are requested
for an audit referred to in section 586(f) of title 28
[28 USCS § 586(f)].

116a
Appendix E
(e) the trustee, a creditor, or the united States trustee
may request a revocation of a discharge-(1) under subsection (d)(1) of this section within one
year after such discharge is granted; or
(2) under subsection (d)(2) or (d)(3) of this section
before the later of-(A) one year after the granting of such discharge;
and
(B) the date the case is closed.

